No.

h the
Supreme Court ofthe United States
O

GARY VICTOR DUBIN,

Petitioner,

v
OFFICE OF DISCPLINARY COUNSEL,

Respondent.

t
APPENDIX
Ganv Vrcron Drrsrx
Counsel of&ecord

Dusrxl,aw On'r'rcns
55 Merchant Street, Suite 3100
Honolulu, Hawaii 96813
Telephone: (sog) 537 -2300
Facsimile: (sog) 523-7733
Cellular: (soa) 392-9191
E'Mail: gdubin@dubinlaw. net
Petitioner
Gury Victor Dubin
Member, Supreme Court Bar

EXHIBIT 1

Office of Disciplinary Counsel v. Dubin, Not Repoded in Pac. Rptr. (2020)

Rules of Professional Conduct (1994) by
knowingly misrepresenting the truth on a
government form on which he cerlified the

2o2owL 54tzgg6
Only the Westlaw citation
is currently available.

information thereon was true.

In ODC Case No.

Unpublished opinion. See HI
R RAP Rule 35 before citing.
Supreme Court of Hawai'i
OFFICE OF DISCIPLINARY
COUNSEL, Petitioner,
V.

Gary Victor

DUBIN, Respondent.

SCAD-19-ooooS61
I

September g,2o2o.

OzuGINAL PROCEEDING (ODC Case Nos.
16-0-147

,

16-0- I 5

1,

16-0-213, and

16-

o-326)
(By: Recktenwald, C.J., Nakayama, McKenna,
and Wilson, JJ., and Intermediate Court of
Appeals Associate Judge Leonard, assigned by
reason ofvacancy)

F DIS

*1

Upon a thorough and careful review
of the entire record in this matter, and the
briefs submitted by the parties, we find and
conclude, by clear and convincing evidence,
that Respondent Gary V. Dubin, committed the

following misconduct.

In Office of Disciplinary (ODC) Case No. 160-151, we find and conclude that Respondent
Dubin violated Rule 8.4(c) of the Hawai'i

l-rtfl?LA'c'l'' iij

itl;1

"I'1.:*xiri** R**i+:i*. I'i*

*f

16-0-147, we find and

conclude that Respondent Dubin violated
HRPC Rule 8.a(c) (2014) by signing the
names of his clients, without their permission,
in the endorsement section of a $132,000.00
settlement check made out to them alone and
depositing it in his client trust account, thereby
gaining control over those funds. We find
he did not immediately inform the clients of
the receipt of the check when he learned of
it. We also find the invoice he subsequently
issued to the clients on November 7 ,2015 was
the first billing statement or accounting since
the inception of his representation of them in
February 2\I2,wherein he asserted 569,7 02.87
in fees and costs owing, based upon an hourly
rate of $385.00 an hour for associates on the
case. We find and conclude that this rate was
unreasonable because it exceeded by $115.00
per hour the rate agreed upon in the retainer
agreement for associates and was also applied
to one associate for work done at a time when
that associate was not licensed to practice law
in this jurisdiction. We also f,rnd the clients
were never contacted or consulted regarding
an amendment of the agreed-upon rate. We
find that, as a result, Dubin overcharged the
clients a minimum of $19,885.00. We conclude
Respondent Dubin's conduct in this regard
violated HRPC Rules 1.5(a), 1.5(b), 8.4(c) and
1.a(a)(3) (once for failing to timely inform
the clients of the receipt of the check, and
once by failing for more than three years to
communicate with the clients regarding the
status of their account) (2014).

aim i* *rigi**1 lJ.$. i;*ve tntn*nt.

V,J+rliu

Office of Disciplinary Counsel v. Dubin, Not Reported in Pac. Rptr. (2020)

We find and conclude that, in ODC Case
No. 16-0-326, Respondent Dubin withdrew
$3,500.00 of the client's funds at a time
when, based upon Respondent Dubin's own
accounting, Respondent Dubin had not yet
earned those funds, thereby violating HRPC
Rules 1.15(a) and 1.15(d) (2014). We find and
conclude he did not inform the client when
he fully disbursed the client's $45,000.00 from
the firm's client trust account, thereby violating
HRPC Rule 1.15(d) (2014), and he did not
respond to clear inquiries from ODC regarding
the matter, in violation of HRPC Rule 8.a(g)

(2014).

We find that Respondent Dubin's conduct,
in ODC Case Nos. 16-0-147 and 16-0-326,
inflicted actual, serious, injury upon the clients
and upon the profession and, in ODC Case No.
16-0-151, inflicted injury on the public atlarge
and the integrity of the profession.

We have thoroughly reviewed the

record,
and Respondent Dubin's arguments, both at
the Disciplinary Board and before this court,
regarding alleged violations of his right to due
process throughout the disciplinary process,
and find them to be without merit.

*2 We also find, in

aggravalion, that
Respondent Dubin has two prior disciplines,
evinced a dishonest or selfish motive,
demonstrated a pattern of misconduct,
committed multiple offenses, refused to
acknowledge the wrongful nature of his
conduct, and has substantial experience in
the practice of law. In mitigation, the record
contains many positive comments from clients,

and Dubin has contributed positively to the
development of the law.
We note relevant disciplinary precedent in this
jurisdiction, including ODC v. Chatburn, Case

No.24177 (May 30,2002) and ODC v. Burns,
Case No. 20882 (December 17 ,1999), and take
into consid erution AB A Standards for Imp o s in g
Lawyer Sanctions, Standards 4.11, 4.41, and
7

.t.

Finally, we have reviewed the arguments from
both parties, and related materials, regarding
the July 23,2020 motion from ODC counsel
on this matter, seeking to strike the exhibits
appended to Respondent Dubin's reply brief.
Hence,

IT IS HEREBY ORDERED that the motion to
strike is denied.

IT IS FURTHER ORDERED that Respondent
Dubin is disbarred, effective 30 days after the
entry date of this order.

IT IS FURTHER ORDERED that, pursuant to
Rule 2.16(d) of the Rules of the Supreme Court
of the State of Hawai'i (RSCH), within 10
days after the effective date of his disbarment,
Respondent Dubin shall submit to this court
proof of compliance with the requirements of
RSCH Rule 2.16 regarding disbarred attorneys.

IT IS FURTHER ORDERED that Respondent
Dubin shall pay $19,885.00 in restitution to
the clients named in ODC Case No. 16-0-147
and submit proof of said payment to this court,
all within 30 days after the entry date of this

order. The Disciplinary Board may, on behalf

WFSTLA$J- i{l

-tilt'i 1i:+*r**l

H*,Jt*rs.

r\jl-:

r;lriil l+ +r ii;irial I i.$. #*,r*l*m*rrt lY*rkn

2

Office of Disciplinary Gounsel v. Dubin, Not Reported in Pac. Rptr. (2020)

proceedings, upon the approval of a timely
submitted verified bill of costs by ODC,
pursuant to RSCH Rule 2.3(c).

of the clients in ODC Case No. 16-0-147, seek
fuither orders from this court in enforcement
of this directive, pursuant to RSCH Rule 10,
or by other means the Board determines are
appropriate to propose.

All Citations

IT IS FURTHER ORDERED that Respondent
Dubin shall bear the costs of these disciplinary
End of Socument

i?f SrLAW O ptl?1 Iirunr$+ir lt+lrt**rs.

Not Reported in Pac. Rptr., 2020WL 5412896

(O

2021 Thomson Reuters. No claim to original U.S^ Governrrent Works

l{* *iair:r lc urigirriri U.$ #*'r*lr.r:r*nt

\ir/llrks

t

EXHIBIT 2

Office of Disciplinary Counsel v. Dubin, Not Reported in Pac. Rptr. (2020)

2o2owL 575got4
Only the Westlaw citation
is currently available.

RDER

*1

Upon a thorough and careful de novo
review of the September 21, 2020 motion

Unpublished opinion. See HI
R RAP Rule 35 before citing.

for reconsideration, filed by Respondent Gary
Dubin, and a de novo review of the entire
record in this matter,

Supreme Court of Hawai'i.
OFFICE OF DISCIPLINARY
COUNSEL, Petitioner,
v.
Gary Victor DUBIN, Respondent.

IT IS HEREBY ORDERED that the motion

SCAD-19-oootls61
I

September 28, 2o2o

ORIGINAL PROCEEDING (ODC Case Nos.

16-0-147, 16-0-151, 16-0-213, and

16-

o-326)
(By: Recktenwald, C.J., Nakayama, McKenna,
and Wilson, JJ., and Intermediate Court of
Appeals Associate Judge Leonard, assigned by
reason ofvacancy)

is denied, as well as the requests for relief set
forth therein, with the exception of the effective
date of Respondent Dubin's disbarment, which
is extended 31 days, to Monday, November 9,
2020. No further extensions shall be granted.
Respondent Dubin shall therefore file the
declaration required by Rule 2.I6(d) of the
Rules of the Supreme Court of the State
of Hawai'i by November 19, 2020. Finally,
pursuant to this court's September 9, 2020
order, Respondent Dubin remains obligated to
pay the $19,885.00 in restitution and to submit
proof of that payment to this court by October
9,2020.

All Citations
Not Reported in Pac. Rptr., 2020WL 5159014
End of Document

O 2021 Thomson Reuters. No claini to original U.S. Government Works.

4

I

EXHIBIT 3

Electronically Filed
Supreme Court

scAD 19 0000561
21 SEP 2020
11:34 PM

scAD-19.0000s61

IN

THf SUPREME

COURT OFTHE

STATI

OF HAWAII

OFFICE OF DISCIPLINARY COUNSEL,
Petitioner,
VS.

GARY VICTOR DUBIN,
Respondent.
MOTION FOR RECONSIDERATION OF
ORDER OF DISBARMENT ENTERED SEPTEMBER 9, 2O2O
John D. Waihee, lll 1864
Gary Victor Dubin 3181
Dubin Law Offices
55 Merchant Street, Suite 3100
Honolulu, Hawaii 96813
Telephone: (808) 537-2300
Facsimile: (808) 523-7733
E-Mail : jwaihee@du bi nlaw. net
E-Mail: gdubin@dubinlaw.net
Attorneys for Respondent

TABLE OF CONTENTS OF MOTION
page

A. INTRODUCTION
B. THERE WAS INSUFFICIENT PROOF
OF ANY MISCONDUCT BY RESPONDENT
1. This Court's Prior Disciplines Conclusion ls Factually Not True
2. This Court's Smith/DCCA Conclusion ls Factually Not True
3. This Court's Kern/Harkey Conclusions Are Factually Not True
4. This Court's Andia Conclusions Are Factually Not True

C. RESPONDENTWAS DENIED DUE PROCESS
1. Due Process Prehearing Violations
2. Due Process Hearing Violations
3. Due Process Post-Hearing Violations

D. LEGAL ARGUMENT
1

. This Court's Conclusions Are Based on
U ntrustworthy I nsufficient Find ings

2. This Court's Conclusions Are Based on
U ntrustworthy Adopted Find ings
3. This Court's Conclusions Are Not Based
on Clear and Convincing Evidence
4. This Court's Conclusions Are Those
Of Disqualified Triers of Fact
5. This Court's Conclusions Deny
Respondent a Meaningful Hearing
6, This Court's Disbarment Order Should
Be Reconsidered as Manifest Error
E. RELIEF SOUGHT BY RESPONDENT
Appendix: Exhibits 1 through 33
Certificate of Service

1

2
2
5
11

19

35
35
37
39
41

41

42
43
43
46
47
50

MOTION FOR RECONSIDERATION OF
ORDER OF DISBARMENT ENTERED SEPTEMBER 9, 2O2O

COMES NOW Respondent and hereby timely moves this Honorable Court for

the reconsideration of its above-referenced Order, pursuant to Rules 2 (suspension of
rules in the interests of justice), 17 (original proceeding rules), 26(b) (computation of

time), 27(d) (excludes motions for reconsideration from page limitations), and 40
(motions for reconsideration rules) of the Hawaii Rules of Appellate Procedure.

This Motion for Reconsideration is submitted in good faith for the reasons set
forth in the accompanying Declarations, supported by the accompanying Exhibits and
the records and files in these proceedings.

A. Introduction

The fact-finding process in the undedying disciplinary proceedings

was

fundamentally flawed, lacking both evidentiary and due process support, resulting in

mere prosecutorial accusations becoming factual conclusions taken out of context
absent any underlying proof of misconduct.

Four disciplinary cases were combined over Respondent's objection, and tried
and decided together. This Court found ethicalviolations in three of the four cases.

After the omnibus hearings, the accusations of the Office of Disciplinary Counsel

(ODC) embodied in its proposed findings were adopted verbatim by the Hearing
Examiner, then adopted verbatim by the Disciplinary Board (Board), and now in material
respects adopted verbatim by this Court.

The purpose of this Motion for Reconsideration is to prove to this Court that its
September 9, 2020 generalized conclusions set forth in its Order of Disbarment (Exhibit
1) are not only not supported by the actual record, but contradicted by

t

it.1

Pertinent parts of the Record are contained in the accompanying Exhibits. Record
references are set forth in the Cover Sheet preceding each Exhibit. Due to the large
nature of the Record and the many issues in the three cases under review, it is not
possible to document every reference in these Motion Papers in the time allowed to file
for reconsideration. lf the Court will extend time, even more documentation can be
added.
1

This Court's decision consists of eight such dispositive, yet wholly conclusory
factual statements, each identified, boxed, and questioned below in this Motion for
Reconsideration, announced by this Court although void of any supporting specifics,
contrary to this Court's othenruise appellate workmanship.

You have ordered a professional death sentence against Respondent with less
than four full pages of text, disgracing and ending the career and the life of an 82-yearold lawyer with an otherwise unblemished national S7-year-old ethical record, who you
othenryise recognize "has contributed positively to the development of the law." Order,
Page 4.
B. There Was lnsufficient Proof of Any Misconduct by Respondent

This Court began its Order of Disbarment by concluding that "we find and
conclude, by clear and convincing evidence, that Respondent Gary V, Dubin, committed
the following misconduct," shown below highlighted within eight boxes.
1. This Gourt's Prior Disciplines Gonclusion ls Factually Not True

"ln aggravation, Respondent Dubin has two prior disciplines," Order, page 4.
Not true. Contrary to this adopted conclusion, taken from the ODC's self-serving
narrative, Respondent, whose professional background any attorney would be proud of

(Exhibit 2), has never been disciplined for any ethical violation against a client in his
entire S7-year career as an attorney, either as a Member of any State or Federal Bar or
while appearing pro hac vice in any other jurisdiction.

That is a fact, and there is nothing whatsoever contradictory in the underlying
record. lt was therefore fundamental prejudicial error for this Court to adopt in
aggravation the ODC's accusation of prior discipline.
There are two possible explanations for this mistake.

First, the ODC mistakenly tried

to use Respondent's quarter-century-old, 1995

federal failure-to-file income tax misdemeanors to claim prior misconduct, having been
bench tried and convicted of IRS misdemeanor charges in Honolulu by Visiting California

U.S. District Judge Manuel Real, recently deceased, a controversial federal
2

judge widely criticized for erratic and abusive behavior, even though the ODC following

a

three-year investigation ruled that Respondent under the circumstances did not

commit any professional misconduct (Exhibit 3):

Based upon the information and documents obtained by our
investigation, the Reviewing Member of the Disciplinary Board has
determined that a finding of professional misconduct on your part,
regarding your 1995 misdemeanor conviction for Willful Failure to
File Income Tax Returns in violation of 26 United States Code
section 7203, is not warranted due to the unique circumstances
pertaining to your matter. [Emphasis in the original]
Thereafter, the California Bar Court, of whose Bar Respondent has been a
Member since 1964, conducted their similar investigation, the Bar Court Settlement
Judge agreeing with the ODC, nevertheless within his limited authority gave
Respondent the minimum public reproval which when published read like approval and
not reproval (Exhibit 4):

ln January 1994 Dubin was convicted of violation of 26 USC section
7203 failure to file federal income tax returns, from 1986 through
1988. He has since filed the returns but owed no taxes for those
years because of business losses. At about the same time he failed
to file those returns, he was audited. He received a letter from an
employee of the Internal Revenue Service stating that he was not
required to file income tax returns for the years covered by the audit.
There were no factors in aggravation. ln mitigation, at about the time
of the misconduct, Dubin was under great stress because his son
had been terminally ill and passed away in 1992. The misconduct
was due, in part to the letter he received from the IRS stating that he
was not required to file the tax returns. Also, the misconduct did not
involve clients.
And thereafter, the ODC confirmed to Respondent in writing that it would not be

seeking reciprocal discipline, and did not, since the ODC had earlier found no
professionalwrongdoing by Respondent on the same facts (Exhibit 5).
Respondent then appealed

apologized

to

Respondent that

to the IRS Seattle District Office, and the IRS

it was wrong and admitted that it actually owed

Respondent almost $100,000 for the tax years in question, and Respondent was further
exonerated by a seven-year investigation by the American Bar Association published as
a front-page story inits Journal (Exhibit 6).

-J

Yet at the hearing the ODC prosecutor tried to deny that exculpatory evidence
that the ODC itself had cleared Respondent of any wrongdoing regarding his earlier
misdemeanor convictions, at first emphatically intentionally denying before the Hearing
Officer the fact that any such documentary evidence refuting the ODC's aggravating
circumstances claim existed in the ODC files, with the Hearing Officer refusing to

to

produce the documents, instead placing that burden on
Respondent, until Respondent found and produced later in the hearing copies of that

compel the ODC

documentation, supra, exculpatory evidence being concealed by the ODC prosecutor in

the ODC's own files (Exhibit 7).
Second, the ODC presented the Hearing Officer with evidence of a 16-year-old

ODC informal admonishment

in 2004 in a case brought by someone not even

Respondent's client, for being late in providing an irrelevant requested document, which
notice of admonishment was ironically belatedly mailed days after the September 11,
2001 bombing of the New York World Trade Towers when the whole Country including

the U.S. Post Office was closed and not sorting and delivering mail and was received
too late for Respondent to reject when he tried, seeking reconsideration, only to be told
there was no procedure for reconsideration (Exhibit 8).

That informant admonishment was however subsequently ordered expunged
when a SpecialAssistant Disciplinary Counsel who brought that noncooperation charge
(playing prosecutor, judge, and jury as the ODC prosecutors like to do, self-servingly
charging failure to cooperate with them), later was fired for bias for his own wrongdoing
pertaining to that very investigation, with all related records pertaining thereto ordered
destroyed by the State Attorney General in Civil No. 06-1 -1485 GWBC, subject to judicial
notice by this Court, nevertheless dishonestly resurfacing below'

Respondent repeats that

he has never been found to have committed

any

misconduct toward a client or anyone else and that this Court's Order nevertheless
erroneously adopting the ODC/Hearing Officer/Board's erroneous adopted findings and
ignoring Respondent's unblemished disciplinary record was prejudicialerror.

4

2. This Gourt's Smith/DCCA Conclusion ls Factually Not True

"Respondent knowingly misrepresented the truth on a government form; he ceftified the
information thereon as true. Smith/DCCA Case," Order, pages 1-2'

Not true. Since "knowingly" is the ABA standard that this Court approvingly cites

in its September 9, 2020 Order, page 4, as controlling its disbarment decisions, it is
difficult to understand how the Court came to that conclusion in the SmithiDCCA Case,
since at the hearing the ODC presented no witnesses at all on that issue, in fact no
witnesses whatsoever.

To understand how all this came about, one needs to consult the record
chronologically in order to understand the factual context, which unfortunately is
completely absent from this Court's Order.
Four years ago, on March 7,2016, the ODC received an anonymous half-page,
typed letter signed "/s/ Joe Smith" describing himself "as a member of the public," with
an obvious personalanimus, claiming, inter alia, as follows (Exhibit 9):

As the enclosed summary disposition order shows, the

Hawaii
lntermediate Court of Appeals affirmed the revocation of the mortgage
solicitor's license of Hawaii attorney Gary Victor Dubin
(attorney number 3181) based on the fact that Gary Victor Dubin lied
in a response to a question on his application form that asked whether
he had been convicted of a crime during the prior 20 years'
****Rule 8.a(c) of the Hawaii Rules of ProfessionalConduct states:
(c) engage in
"lt is professional misconduct for a lawyer
misrepresentation[.]"
deceit
or
fraud,
conduct involving dishonesty,

to:

When notified of the Smith letter by the ODC, Respondent replied, explaining that

he was not aware of the mistake and that that DCCA decision and the subsequent
decision of the ICA were not based on any finding of wrongful knowledge or intent, but
were treated as mere malum prohibitum violations without any proof of wrongful intent
which is exactly how Respondent answered the ODC's Amended Petition.
Frustrated by residential lending abuses while practicing foreclosure defense, on

4, 200fl Respondent, as a sole nonparticipating investor only, had formed
Dubin Financial, LLC, a mortgage brokerage, hiring an experienced licensed local

December

mortgage broker to manage the company.
5

Unfortunately, mortgage brokers at that time were largely unregulated, and when

Respondent discovered that the licensed mortgage broker he had hired was cheating

borrowers and stealing from Respondent, which was the culture of the times,
Respondent fired him and as a matter of public record voluntarily closed Dubin Financial
in early 2009 (Exhibit 10).

However, a mortgage brokerage cannot operate without a designated mortgage
solicitor in charge, so Respondent had to hurriedly apply to become a mortgage solicitor,

so designated, in order to briefly maintain Dubin Financial's license, solely for the
purpose of completing a few loans already in the pipeline so as not to prejudice any
existing loan applicants.
No new business was undertaken, and Dubin Financial, LLC was closed, and the
mo rtgage brokerage icense vo
I

I

u

nta

ri

ly term i nated.

Two years later after the closing, the DCCA brought charges against Respondent

alleging his 2008 solicitor's license contained a "misrepresentation" it deemed to be
malum prohibitum grounds for revocation of a mortgage brokerage license and a fine,
atbeit illogically as the license had already been voluntarily released two years earlier.

The basis for the belated DCCA revocation was that Respondent's application
failed to disclose that he had been previously convicted in '1995, thirteen years earlier,

of federal failure-to-file income tax misdemeanors, supra, because one of the several
form questions asking whether an applicant had been convicted of a crime was checked
"NO" instead of "YES,"hence not disclosing that Respondent 13 years earlier, in 1995
had been bench tried and convicted of IRS misdemeanor charges, supra.

Respondent explained that he did not knowingly nor intentionally check the
wrong box on the form, but that as he recalled, it was a long time ago, the form was
filled out mistakenly by a law clerk either before or after he had signed it and in any
event he had not been found by the DCCA to have knowingly done so.
Nevertheless the ODC, cavalierly denying Respondent's request

to meet first,

informed Respondent that they would meet with him to discuss the issues after the
Petition for Discipline was first filed, and the ODC then proceeded to include the Smith
complaint within its January 2017 Petition for Discipline and it amended Petition for
Discipline of record herein solely on the basis of the DCCA's use of the word
6

"misrepresentation" nine years earlier, ignoring the DCCA's stated position nonetheless

that Respondent's intent was not at issue, and ignoring the ICA's appellate malum
prohibitum decision that it had not found Respondent to have personally intentionally
misrepresented anything on his mortgage solicitor's form, and ignoring proof of intent as
a part of any professionalethics investigation::
By failing to disclose information on his licensing application [in 2008]
Respondent violated the following provision of the Hawaii Rules of
Professional Conduct: 8.4(c) (pre fsic pas2O14 version) (A lawyer
shall not engage in dishonesty, fraud, deceit or misrepresentation;
8.4(a) (pre 2014 version) (A lawyer shall not violate or attempt to
violate the rules of professional conduct, knowingly assist or induce
another to do so, or do so through the acts of another.)
Respondent appropriately filed a Verified Answer, inter alia):

Respondent hereby responds that he denies that there were any
findings whatsoever that Respondent made any misrepresentations;
instead it was considered a malum prohibitum regulatory violation,
and indeed both the DCCA prosecutor and the hearing examiner as
recorded refused to find any intention by the Respondent or any
personal wrongdoing by the Respondent to misrepresent anything,
which if anything should be res judicata and/or collateral estoppel
and/or issue preclusion as to such a charge here based entirely upon
such rejected finding or misrepresentation.
However, the ODC petitioned for discipline against Respondent on the sole basis

that he supposedly had been found by the DCCA to have intentionally lied on his
solicito/s application and lost his appeal in the ICA).
There nevertheless was no finding whatsoever of knowledgeable or intentional
misrepresentation by the DCCA nor the lCA.

To the contrary, despite the misleading nomenclature of "misrepresentation," the
DCCA considered itself bound by the decision of this Court in Kim v. Contractor's License

Board, 88 Haw. 264,965 P.2d 806 (1998) (Exhibit 11), holding that such omission of
proof of knowledge or intent was irrelevant since it was a malum prohibitum violation, not
requiring proof of any intent (Exhibit 12):

There was no evidence that Respondent Dubin took part in the
preparation of the mortgage broker's application of Respondent
Dubin Financialor in the submission of that application. ln addition,
the was no evidence that either Lindberg or Vu consulted
Respondent Dubin regarding the contents of the application or that
7

Respondent Dubin had any knowledge of the contents of that
application. * * * * Proof of an untruthful statement within the
meaning of this statute does not require proof of intent to lie or intent
to not tellthe truth.
lndeed, that was the stated legal position of the DCCA prosecutor throughout,
who on March 29,2011 in his final argument before the DCCA Hearing Officerfreely
conceded the point (Exhibit 13):

The Hawaii Supreme Court came to that conclusion [in Kim] based
on its review of Chapter 444 and the fact that there was a complete
absence of any explicit requirement of intentional state of mind on
the part of the applicant in holding that they were - basically they
were not going to read a requirement of intentionalstate of mind in a
statute that just talks about materialmisrepresentation. . . . I believe,

:iTil."ty,

in

this case there is no requirement of intent in that provision.

I don't think the evidence supports a finding that he [Respondent]
intentionally tried to pull one over on the department by answering
that question no - - - - I mean I don't see the evidence that he was
doing this intentionally. First, because he's a smart guy and he

wouldn't think that the department was - that they would not catch
that, so I don't- and, frankly, it was a matter of public record that he
was convicted and I think anyone in the legal community probably
knew that at the time that he applied for the license, and in any case
it is a matter of public record and also a matter of some publicity; so I
don't think Mr. Dubin would have done that with the hope the
department would n't know.
The publicity that the DCCA prosecutor was referring to was the fact that the
Respondent himself at the very same time the application was being signed had been
publicizing his discredited misdemeanor convictions by publishing full page color ads in

local newspapers copying the ABA Journal report together with the letter he had
received from the IRS prior to being charged, stating that he had no filing requirement
for the tax years in question, further evidence that Respondent was not trying to hide
anything (Exhibit 14).
Respondent, the evidence at the DCCA hearing, supra, further similarly showed,

had earlier applied for a Honolulu liquor license for a convenience store of his and the
prior convictions question had been checked "yes," and the liquor license was
immediately granted nevertheless, further evidence that Respondent was not trying to

8

hide anything or felt he had to hid anything, always freely acknowledging those
discredited convictions to the entire world every chance he had to this day, trying to
erase what for some it seems is nevertheless indelibly etched in their brain, which is
how public smears remain prejudicial even when, as here, the complaining witness, the
lRS, admits that was wrong.

The DCCA Hearing Officer agreed with the DCCA prosecuting attorney, finding a
malum prohibitum violation absent any finding of knowledge or intent.

Respondent appealed, arguing

a mens rea defense. The ICA however

affirmed,

holding knowledge or intent not a part of the violation charged, based on this Court's
prior Kim decision relecting a mens rea defense (Exhibit 15).

No cedrbrari petition was filed in this Court, Respondent considering the matter
closed and having a primary obligation to work instead on clients'cases, never believing

that the matter would be revived a decade later via an anonymous complaint to the
ODC, or be taken this seriously given no finding or knowledge or intent or wrongdoing.
Had Respondent known, he would have certainly sought certiorari in this Court, for the

ffi

decision

is

nonsensical, just another reason why there should be

a

statute of

limitations in Hawaii for disciplinary complaints as there is in other States, supra.
What finally should have resulted was ODC's Smith/DCCA Case being dismissed

with prejudice when Respondent's former paralegal, appearing by telephone from
Florida, submitted a Declaration and testified at the ODC hearing that he was the one
that filled out the form including the one that had checked the wrong box, not the
Respondent (Exhibit 1 6):

[M]y responsibility was to fill out these forms, not just this mortgage
form, but all other forms for the law firm. Mr. Dubin is always busy,
so this was my full responsibility. I filled out the mortgage application
accordingly, to my best knowledge, which was that the conviction
was overturned; hence the exoneration of Mr. Dubin for such
conviction. And again, the Hawaii Bar, there was no disciplinary
actions taken against Mr. Dubin, nor did he lose his licenses in any
shape or form. Thus, I filled out the application as such.
No contrary evidence of wrongful knowledge or intent was provided by the ODC

who had no witnesses at the ODC hearings, which nevertheless ultimately submitted
erroneous, proposed findings of fact and conclusions of law to the ODC Hearing Officer

I

accusing Respondent of personally lying on the form doing an end run around the
DCCA unique statutory definition of truthful ("The IDCCA] Hearing Officer specifically
found that Respondent's answer to Question No. 8 was 'untruthful within the terms of
HRS S 4368-1 9(2)"'-ODC FOF #1 6).

The most charitable explanation for all of this linguistic confusion might be that
during the entire four years of this aggressive prosecution the membership of the ODC
kept changing, and those who brought the charges and those who prosecuted the
charges abruptly disappeared, including at least four Chief Disciplinary Counsel and at
least three Assistant Disciplinary Counsel.

The ODC Hearing Officer after an overall lengthy seven days of hearings
nevertheless robotically adopted verbatim the partisan findings of fact and
recommendations of the ODC prosecutor without changing a single word, by submitting

a

one-paragraph statement, embarrassingly incomprehensible, rejecting intent as
relevant to disbarment and basing disbarment upon the "cumulative" effect of the four

complaints, which the Board also adopted verbatim (Exhibit 17):

as my

report, the findings and
submitting,
shall
recommendations of the Office of Disciplinary Counsel. As respects
the proposed findings and recommendations of Respondent, while
researched and consistent with his position throughout the
proceeding, that the charges are "malum prohibitum" (that iS,
unlaMul by rule or statute, but not evidencing wrongful intent), the
conduct at issue and the cumulative complaints warrant the result
[disbarment] requested by the Office of Disciplinary Counsel. [word
in brackets added from his recommendation to the Boardl

I

be

ls there any Member of this Court that can make any sense out of the Hearing
Officer's logic and conclusion?

And since this Court has now completely ignored the ICAIODC fourth complaint
against Respondent, what does this do the Hearing Officer's reasoning and his view
that an attorney's exposure to disbarment has nothing to do with intent, but in this case
was "cumulative?"

Moreover,

the Hearing Officer's findings which the Board, supra, adopted

verbatim and which by this Court's Rules were supposed to be send immediately to this
Court, were not.

10

lnstead ODC lawyers paid lip service to the Hearing Officer's adopted findings,
while drawing up their own version, calling its version, never before formally approved if
even ever seen by Board Members or certainly not by the Respondent, the "Board's
Report," and submitting it to this Court half a year late (Exhibit 18).

This Court's finding of "knowingly" as the ABA basis for disbarment on this record

is really indefensible, and certainly not justifiable either by the decision of the Hearing
Officer nor by any requisite "cumulative" clear and convincing evidence.
3. This Court's Kern/Harkey Conclusions Are Factually Not True

"Respondent withdrew $3,500.00 of the clients'funds at a time when, based upon
Respondent's own accounting, Respondent had not yet earned those funds."
Kern/Harkey Case, Order, page 3.

Not true. When Respondent was forced to withdraw from representing

Mr.

Harkey, explained below, Mr. Harkey owed Respondent $69,475.44 in fees and costs
(Exhibit 19).
It was only on November 28,2017, just a few minutes before the conclusion of

the combined omnibus hearings, that the ODC prosecutor waited for the first time to
raise that issue, without providing Respondent time to investigate and knowledgeably
respond (Exhibit 20):

According to my calculations, as of the date you withdrew the
$20,000 on March 7th,2016, you withdrew $3,350 from Mr. Harkey's
$20,000 in unearned fees.
A. I don't know if your calculations are correct. I also do not know
whether or not the accountant made a mistake in the dates, so -- - - There could have been a mistake. After all, we're 70,000 in arrears.
I'm not even charged for this in the amended petition.

a.

Respondent further replied that the invoicing is done by his in-house accountant,

and there was no evidence submitted that any such mistake was knowingly made by
her or by the Respondent or otherwise intentionallydone.
Furthermore, Respondent replied that the ODC prosecutor did not include costs
and general excise tax in his calculations, lots of documented work on the case by other

members

of

Respondent's law firm he noticed was inadvertently omitted from the
11

calculations, and replied that the invoicing dates could have been mistaken by four
days, and that he would have to check his office records, but the ODC prosecutor
continued to repetitiously badgering him at the hearing with his usual habit of banging
his fist on the table, not explaining why he brought that issue up at the very end of the
hearings without giving Respondent time to investigate'
Errors by accident committed by others, moreover, in the absence of evidence of

a clear and convincing, knowing ethical violation, and
certainly not one justifying disbarment, and such questions should not have been

willfulness, does not equate to

reserved for the last few minutes of the hearings to prejudice Respondent.
Nor should a contrary prosecutorial record be made by ambush.

Respondent upon checking his records after the hearing discovered that there
was an almost two-month gap shown in the client invoice starting at the end of January

by lost manual time slips resulting in lost billings during that period
explaining the difference between the periodic oral reports given to the client at his
2O1O caused

request triggering withdrawals, all in the client's favor, and what was being complained
about at the conclusion of the hearings.

"Respondent did not inform the client when he fully disbursed the client's $45,000.00
from the firm's client trust account, and he did not respond to clear inquiries from ODC
regarding the matter. Kern/Harkey Case," Order, page 3.

Not true. That conclusion is wrong on both counts.

First, the ODC's only witness, the record shows, was Mr. Kern who had no
personal knowledge of what had transpired between Mr. Harkey and the Respondent,
who was retained by Mr. Harkey for the Nevada case only after Mr. Dubin withdrew.
Mr. Kern, after substituting for Mr. Dubin in the USDC Nevada case and being
rebuked with court sanctions and having lost the case for Mr. Harkey, dismissed for
litigation abuse, was not paid, and his motivation was only to secure funds for himself.

While Mr. Kern did very belatedly, after Respondent challenged his authority,
finally produce Mr. Harkey's signature with that of Ms. Nora (whose involvement is
discussed below) authorizing Mr. Kern to seek information (Exhibit 20), however there
12

was not only no proof that that was Mr. Harkey's signature, itself described at the
hearings as a facsimile, but Respondent had plenty of reason to doubt it.

There was also no proof that Mr. Kern's hearsay testimony at the hearings
reflected Mr. Harkey's views, not mentioned in his alleged authorization letter,
notwithstanding that he was in bankruptcy at the time, yet Mr. Kern was permitted to

speak for Mr. Harkey at the hearings without any foundation for his testimony and
without there being any opportunity for Respondent to cross-examine Mr. Harkey nor
any explanation why Mr. Harkey was not also on the telephone.

The Record is

complete with thousands

of

pages

of email and text

correspondence between Mr. Harkey and Respondent, too numerous to exhibit here,
but upon request Respondent will make whatever part any Member of this Court may
wish be separately submitted as unfortunately the Record as prepared by the ODC is in
shambles.

Second, although the ODC prosecutor through his investigator did claim that the

Respondent had not timely responded to his inquires, that testimony was proven false
at the hearing and recanted by the ODC investigator after being shown a fax to him
responding to his supposed unanswered request for further information (one can never

satisfy the endless requests from the ODC) and seemingly embarrassingly dropped
(Exhibit 21), yet somehow made its way inexplicably back before this Court as a
justification for disbarment.

ln order to understand the truth, it is necessary to understand the chronology of
events, why Mr. Kern was not a trustworthy firsthand witness at the hearings (Exhibit

22), and why Respondent had to withdraw from representing Mr. Harkey due to Ms.
Nora becoming the plaintiff in the case as the Harkey Trust Trustee (Exhibit 23), which
Respondent testified to at the hearings and fully documented, summarized as follows:
Mr. Harkey, after having previously been convicted of federal financial felonies in

federal court on the U.S. Mainland and later a felon in possession of a firearm, serving
between ten to fifteen years in federal prisons (Exhibit 24), came to Respondent in late
2015 thereafter with various cases seeking pro hac vice representation.
One of his cases had just been dismissed in Washington State based on lack of

jurisdiction and another ongoing at the time in Nevada federal district court
13

in Las

Vegas, where he was appearing pro se, which after Mr. Kern was sanctioned by the
presiding Federal District Court Judge, that case was involuntarily dismissed with
prejudice on July 6,2017 (Exhibit 25).

Mr. Harkey hired Respondent first to attempt to salvage through reconsideration
his Washington State loss, which Respondent started to do, but ultimately Mr. Harkey
instructed Respondent to cease working on the Washington State case and to
concentrate on the Las Vegas action.
Respondent applied successfully for pro hac vice status with another member of

his law firm in federal district court in Las Vegas, Nevada, thoroughly researching the
case and communicating with nearly a dozen opposing Nevada counsel over
outstanding discovery and other pretrial matters, and traveling to Nevada, meet with Mr'
Harkey and other local counsel, while drafting new pleadings and discovery requests. Al

of that work is detailed in the Record under Respondent's

thousands

of pages of

submissions forthe Kern/Harkev Case alone.

Mr. Harkey's existing wrongful foreclosure amended pleadings had been ghost
written by a Midwestern attorney, Wendy Nora, who at the time was under disciplinary
investigation in her home State of Wisconsin and therefore unable to secure pro hac
yice status in Nevada, and indeed had been not so politely removed by the presiding
Nevada District Judge from doing any work in the Nevada case following heated
objections by opposing counsel before Respondent was retained, her having been
discovered working on the case as an alleged paralegal sidestepping that District
Court's pro hac yice rules, and then warned off the case by that Court after visibly
surfacing in Mr. Harkey's case, and being subsequently suspended from the practice of
law for two years (Exhibit 26).

During Respondent's representation of Mr. Harkey, Mr. Harkey signed two
written retainer agreements. Mr. Harkey, othenrvise preferring to conduct his financial
affairs orally, and was at his request provided only with oral client trust account
updates, as he emphatically specifically wanted nothing financially to be in writing,
maintaining a low financial profile after his incarceration and apparently fearful of the
lRS, having no bank accounts, and all retainer funds were wired to Respondent from
bank accountsthat were not his.
14

Similarly, Mr. Harkey would principally conduct business on the telephone and by

text messaging, occasionally sending emails at least at first to Respondent only through
a friend in Washington State.

ln one such text message from Mr. Harkey, sent to
representation

Respondent

in his

of him, when his retainer funds had become exhausted, Mr. Harkey

wrote Respondent acknowledging that Respondent had kept him orally fully informed
and upto-date regarding his fees and costs as Mr. Harkey had requested, and that Mr.
Harkey was in the process of wiring additional funds for his Nevada litigation ("1 have
already pledged to get another installment to you as soon as I can. A Commitment"

-

dated April21,2016) (Exhibit 27).
Respondent, however, became ethically required to withdraw his representation

when Ms. Nora convinced Mr. Harkey to transfer his real property, which was the
subject of the Nevada action, to a newly formed operating trust headed by her as
Trustee so that she could again take controlof the Nevada litigation, telling Respondent
what to do, as a ploy overcoming her being disqualified from pro hac vice representation
in Nevada, and Respondent by email on April 25,2016 let Ms. Nora know why:
As you know, no attorney can accept the relationship you propose.
You are forcing my law firm to withdraw our petition for pro hac vice
appearances. I had hoped in recently emailing you that you could
work with us on the Nevada case, not that you would control our
representation and not that we would be stand-ins for you. Your
proposal is unethical and would be contrary to the rules governing
pro hac vice representation in the State of Nevada.
Thereafter contemporaneously followed a series of similar email exchanges

between and among the Respondent (explaining further why he could not ethically
continue representing Mr. Harkey in the case) and Mr. Harkey (asking Respondent
naively to please stay on and work with Ms. Nora behind the scenes) and Ms. Nora
(threatening Respondent, while explaining the way she intended to controlthe case)'
This correspondence is similarly voluminous. There was no way that Respondent
was going to participate in a fraud on the Nevada District Court, no matter how much
money he was being offered.

The discussion between Mr. Harkey and Respondent, Mr. Harkey continuing to
ask Respondentto stay on and work with Ms. Nora, culminated with finaltext messages
15

from Respondent to Mr. Harkey explaining why he could not ethically further represent
Mr. Harkey (Exhibit 28).

the

Whereupon, Respondent moved to withdraw as did his assigned local counsel, at
time a Nevada State Representative and Chairman of Bernie Sanders' 2016

Presidential Campaign in Nevada, himself about to run for U.S. Senate in Nevada, who
Respondent could earlier assured, now embarrassingly, that being local counsel would
not in any way risk his receiving any bad publicity due to the Harkey litigation.

The motion to withdraw was granted by the Nevada Court who was told by
Respondent only of irreconcilable differences between client and counsel so as not to
prejudice Mr. Harkey's case. Meanwhile, Respondent warned Mr. Harkey that Ms. Nora
was not competentto handle his case.

Ms. Nora as Trustee replaced Respondent with her personally selected out-ofstate counsel who in turn selected as his local counsel Mr. Kern, joining the fraud, who
together wrecked Mr. Harkey's case, failing to cooperate in discovery, finally to the point
where Mr. Harkey and Mr. Kern were sanctioned by the Nevada District Judge who then
dismissed the case with prejudice for noncompliance with federal rules, supra. See case
docket sheet referenced above.

ln desperation, Ms. Nora and Mr. Kern had attempted to blame Respondent for
their discovery failings, but the Nevada District Court was not fooled and did not agree,
and when Ms. Nora surfaced on the record as the Trustee, as Respondent had predicted,

the Nevada District Judge wanted nothing more to do with the case and dismissing,
entering sanctions against all of them.

Ms. Nora then placed Mr. Harkey's trust in bankruptcy ("The Harkey Operating
Trust") while appealing the dismissal by the Nevada Court, which bankruptcy was
incorrectly filed by Ms. Nora in the U.S. Bankruptcy Court in Minnesota, then transferred

to the U.S. Bankruptcy Court in Nevada. That part of the saga is also voluminously
documented in the Record by Respondent.

The bankruptcy case was opposed by the IRS as could be expected and
eventually dismissed with no discharge.
Respondent was contacted by the Trust's bankruptcy attorney, Mr. Edstrom, who

informed Respondent that the Trust had filed a claim against Respondent for the return
16

of all of Mr. Harkey's paid retainer fees based on allegations from Mr. Kern, not

Mr.

Harkey.
Whereupon, Respondent explained the situation to Mr. Edstrom and since Mr.
Harkey was now a Debtor in federal bankruptcy court and he had been contacted by his

of1cial bankruptcy attorney not

a part of Mr. Nora's fraud, Respondent

provided a

complete written accounting showing way in excess of what Respondent had been paid
as Mr. Harkey had never added his promised funds, supra, and that was the end of the
matter, with Respondent's accounting never challenged in the Harkey Operating Trust
Bankruptcy, with all appeals from the Nevada dismissal rejected, and Ms. Nora
suspension from the practice of law by her State's disciplinary agency became final.

The ODC meanwhile received a complaint from Ms. Nora's chosen, discredited
local counsel, Mr. Kern, accusing Respondent of failing to provide Mr. Harkey with a
written accounting, even though Mr. Harkey had instructed Respondent not to do so.

When the Kern complaint was first called to Respondent's attention by the ODC,
Ms- Preece, then Assistant Disciplinary Counsel, had already made up her mind to add
the Kern matter to her planned Petition for Discipline, refusing in writing to meet with
Respondent until the Kern matterwas submitted to a Member of the Disciplinary Board'
The ODC chose to take Mr. Kern's testimony by telephone at the hearing, whose

testimony regarding Respondent's representation of Mr. Harkey was all hearsay, the
ODC making no attempt to call Mr. Harkey as a witness even by telephone, ignoring the
fact that Mr. Kern had brought the charges so he could self-servingly be paid his fees'
Respondent repeatedly tried to contact Mr. Harkey but received no reply.

This is all documented in seven days of hearings and the resulting hearing
transcripts. Respondent should not be prejudiced by the voluminous nature of the
Record. However, everything in these Motion Papers is all documented there.

Mr. Kern was unable to testify with personal knowledge regarding any of the
ODC's charges against Respondent producing no evidence that Mr. Harkey had even
so instructed him: (a) Mr. Kern with respectto the requirementsof HRPCRUIe 1'15(d)
had no personal knowledge of what the agreement had been between Mr. Harkey and
Respondent regarding accounting for hours and costs, (b) Mr. Kern with respect to
HRPC Rule I .15(c) had no personal knowledge of Respondent's deposits made by Mr.
17

Harkey into Respondent's client trust account, which happened to be two direct wire
transfers into Respondent's client trust account, (c) Mr. Kern with respect to the
requirements of HRPC Rule 1.15(d) had no personal knowledge of notices given to Mr.

Harkey by Respondent concerning the disbursement of funds from Respondent's client
trust account, and (d) Mr. Kern with respect to the requirements of HRPC Rule 1.4(aX3)

(misquoted by Petitioner in its Amended Petition), had no personal knowledge of how
Respondent had or had not kept Mr. Harkey informed.

Mr. Kern's
contradicted

unsupported hearsay testimony

by Respondent and his voluminous

was moreover completely

supporting documentation

to

the

contrary, including evidence of Mr. Kern's attempted and rejected fraud on the Nevada
Court, but nevertheless the ODC's findings of fact adopted every factually contradicted
statement made by Mr. Kern, and despite the fact that Respondent was bound by
HRCP Rule 3.3 not to aid Mr. Kern in his and Ms. Nora's waging of their fraud on the
Nevada Court.

One need look no further to confirm Mr. Kern's bias than to observe his attempt
to speculate at the hearing how Respondent's final accounting produced to Mr. Edstrom
was supposedly in miniscule error, by his challenging a few time entries which
represented an infinitesimal fraction of the overall balance of fees and costs owed to
Respondent by Mr. Harkey, one based on more than 24 hours charged in one day, that
and a few others being clear accounting errors by Respondent's office accountant who
tabulates the hours and prepares the invoices as Respondent testified, and another
infinitesimal challenge based on the entry of an alleged incorrect date for Respondent's

trip to Las Vegas to meet with Mr. Harkey, when in fact accompanying airline and hotel
receipts in the record showed that Respondent's trip dates were correct.

This is certainly not a record on any clear and convincing evidence upon which to
disbar any attorney.

18

4. This Court's Andia Conclusions Are Factually Not True

"Respondent by signing the names of his clients, withouttheir permission, in the
endorsement section of a $132,000.00 settlement check made out to them alone and
depositing it in his client trust account therebygained controlover those funds."
Andia Case, Order, page 2.

Not true. The above conclusory statement standing alone, if presented to this
Court as the sole finding of fact by a Hawaii Circuit Court or by the Hawaii lntermediate
Court of Appeals would be reversed as insufficient, ignoring material facts and making
further review impossible, especially

if it merely had adopted verbatim an

adversary

party's conclusory finding of fact, yet that is exactly what the Hearing Officer, the Board,
and now this Court has done in this case.

For, none of the material facts summarized in these Motion Papers which were
all documented for the ODC as early as 2016 is a specially prepared Andia Fact Book
(Exhibit 29-in Three Parts, "A", "B",and "C") for the ODC which contradictthis naked
conclusory statement above have yet to be shown to have been considered by the
ODC, the Hearing Officer, the Board, and now this Court, notwithstanding pronouncing

a death sentence upon a contributing Member of the Bar with othenruise no disciplinary
sanctions in his entire 57-year legal career.

That Andia Fact Book tells the true story, everything documented therein,
summarized in the Andia part of these Motion Papers.

Starting at ground zero, not all of the $132,000 settlement funds were owned by
the Andias. Close to fifty percent of the settlement funds as first disputed by Mr. Andia
he later agreed belonged to the Respondent.
Of the $132,000, $70,297.13 was immediately paid to the Andias once the Bank
of America settlement check written on a Rhode lsland Bank cleared Respondent's First
Hawaiian Bank Client Trust Account, including $8,000.00 othenruise by written

agreement replenishing the Andias' retainer account, also immediately paid

to

the

Andias when Respondent's services were terminated'

The ownership of the remaining

$61

,702,87 was initially disputed, Mr. Andia

claiming the entire $61 ,702.87 as his, pursuant to a claimed "flat fee" agreement.
19

The settlement check was supposed to have been made out to the Andias and
the Dubin Law Offices, as the Bank of America had requested and been provided with
Respondent's W-9 IRS clearance form, and Respondent as well as the Andias assumed
legal obligations pursuant to the settlement agreement, but when the settlement check
arrived it was mistakenly made payable to the Andias alone.
Respondent consulted with officers of First Hawaiian Bank who had to approve
any third-party check being deposited, and suggested if Respondent sign the Andias'
names, with his initials, they would approve the deposit into the trust account. FHB
initialed its approvalon the settlement check for the deposit.

It is erroneous to say that Respondent thus had control over the monies,

as

every attorney is bound by Court Rules, and it is admitted that none of the monies left
the client trust account until Respondent then met with Mr. Andia.
During that meeting, Mr. Andia disputed only $19,885.00 of the $61,702,87,and
after being explained the basis for the Associates' charges, which he approved (and
later admitted in writing that he approved at that early meeting), and only then was the
$61,702.87 disbursed to the Dubin Law Offices'

Every Hawaii Rule of Professional Conduct was adhered to. All disputed funds
were placed safely in Respondent's client trust account, and the funds only removed
and were required to be removed when the clients approved the distribution, lndeed it
would have been a violation of our Rules not to have removed those earned funds.
More than a month later, Mr. Andia changed his mind, whereupon Respondent

offered to put $19,885.00 back into his client trust account, but Mr. Andia refused'
Respondent offered to enter into Bar fee mediation or arbitration. Mr. Andia refused,
instead threatening First Hawaiian Bank and Respondent with lawsuits.

First Hawaiian Bank sought exoneration in First Circuit Court, Judge Chang
presiding. Respondent sought exoneration in First Circuit Court, Judge Crandall
presiding. Both Judges ordered the Andias to show up in their courtrooms. The Andias
refused.

Even the Hearing Officer and the Board both ultimately agreed that the
961,702,87 was correctly disputed by Respondent and that the Andias were not entitled
to the entire amount..
20

These are the materialfacts of ownership and compliance with Hawaii Rules of
Professional Conduct contradicting this Court's naked conclusory finding above.

Respondent nor any other attorney can please every client as our courts are the
decision makers in such cases, which is especially true in the area of foreclosure defense
trying to save homes, which traditionally understandably generating enormous personal
stress for affected homeowners who may suffer from lender abuses or who instinctively
may and often do blame their attorneys as well as their judge if they lose theirforeclosure
case.

This has created occasional grief not only for Respondent's law firm which
pioneered foreclosure defense in Hawaii, but for our Circuit Courts also, as evidenced
by Judge Blondin in Honolulu at the end of her term as foreclosure judge having had to
require an armed deputy in her courtroom, and Judge Cardoza on Maui before retiring
occasionally requiring two armed deputies in attendance, and Judge Castagnetti last
year having to stop proceedings in one case to summons armed deputies to eject a
yelling homeowner from her courtroom.

This Court has not escaped on the lnternet the wrath of some foreclosed
homeowners either.

No wonder then that foreclosure defense clients generate the most Bar
regulatory complaints nationwide. Clients are often confused by the inner-workings of
the legal system, or conclude that their judges are biased in favor of lenders, and some
foreclosure defense clients are simply dishonest, believing that by complaining against
their defense attorneysthey will get their monies or their homes back.

And when the ODC gets a complaint against a foreclosure defense attorney, it
begins a feeding frenzy,with a Neanderthalmindset contraryto the reality.
Foreclosure defense also is not a lucrative calling. Respondent's law firm routinely

charges an initial retainer for foreclosure defense clients, most of whom thereafter are
frequently unable to pay as the cases can continue for years, turning cases into pro

bono efforts, yet Respondent's law firm unlike many, never withdraws from a case for
nonpayment, being paid only if there is a large enough settlement.
Mr. and Ms. Andia became Respondent's clients on or about February 17,2012,

signing a retainer agreement for $16,500. They had not paid their mortgage for several
21

years and were in the process of being sued for foreclosure and eviction. Their first
retainer check was dishonored by their local bank.

After Respondent's initial meeting with the Andias, Respondent participated only
initially in their case, researching and preparing a litigation plan and for nearly four years
thereafter had absolutely no contact with the Andias whatsoever until the dispute
described below arose, their case being exclusively conducted by Associates in
Respondent's law firm, the Associates being responsible for keeping track of their hours

and case costs, billing the clients, preparing court documents, attending hearings, and
communicating with the clients and opposing counsel, whereas Respondent or a Senior
Associate will handle the trial if any as lead counsel.

a sole proprietor, he is not a sole practitioner, his law
firm handling hundreds of case, for which many an Associate is assigned full
responsibility. Respondent has full responsibility for his own cases. That is how law
Although Respondent is

firms work.

The Andias' representation consisted of defending against foreclosure and
eventually the Associates in charge of their case at

the

request filed a Counterclaim,

which additional work including suing the Bank of America however was not a part of
their written retaineragreement nor covered by their initial retainer.

Throughout their representation, the Andias reportedly continued

to state that

they were unable to pay for their legal representation further. Respondent's law firm,
however, continued to represent them at considerable additional expense not
contemplated at the time of retention and not a part of their written legal services
agreement, what amounted to a forced contingencyarrangement.

Almost four years later, Respondent's law firm, while managing

to keep the

Andias in their home at great savings for them othenrvise in rental payments estimated
to be a savings of more than $120,000, and without their paying their mortgage or
property taxes or hazard insurance estimated to be a savings of $240,000, and without

paying Respondent's law firm further for almost four years saving more than $60,000,

the Bank of America offered to settle for a dismissal alone of the Andia Counterclaim
against it, while the foreclosure case was to continue with however a likely very
attractive loan modification offer.
22

It took negotiations lasting almost a year, including a sustained mediation effort,

before the settlement was finalized by the Associates who neglected to inform
Respondent about all of the extra work done on the Counterclaim, on the Mediation
before retired Supreme Court Justice Duffy, or the Settlement until agreed upon (Exhibit

soA).
The settlement as negotiated required the Bank of America to pay $132,000,
which included the Andias' attorneys'fees and cosfs in exchange for a dismissal of the
Counterclaim, with the settlement check to be made payable to the Andias and to the

Respondent's law firm, the Dubin Law Offices, jointly, which

is standard

settlement

procedure in this jurisdiction, if not everywhere.

It was and is also standard procedure in this jurisdiction, expressly reserved

the Andias'written retainer agreement at Paragraph 16, that Respondent had
attorney's lien covering settlement proceeds giving Respondent

a

in

an

lawful ownership

interest in settlement proceeds in the case:

Attorney's Lien. You hereby grant us a lien on your claims or causes
of action which are the subject of our representation, and on any
recovery or settlementthereof, for any sums owed us during or after
our representation.
Accordingly, local counsel for the Bank of America requested IRS W-9 forms
signed by both the Andias and by the Respondent before its settlement check would be
released, which both the Andias and Respondent thus signed and returned to opposing
counsel.

The settlement agreement itself placed burdens on Respondent as consideration

for signing to agree to certain settlement terms, and the standard policy of having
settlement funds made payable to opposing parties and their attorneys is also
specifically so that opposing counseldoes not subsequently seek fees and costs.

When the settlement check was received by Respondent's office,

it was

mistakenly made payable to the Andias only.

Respondent was informed by the Associate in his office at that time, Richard
Forrester, who was

in charge of the Andias' foreclosure litigation taking over for

Associate Andrew Goff who had negotiated the settlement regarding the Counterclaim,

23

that Mr. Andia for the first time was demanding all of the settlement monies supposedly
having had a "flat fee" agreement with Respondent, no matter how much legal work had
to be done and no matter how much costs were incurred.
Respondent discussed the mistake with an officer at First Hawaiian Bank where

his attorney client trust account has been located since 1982, and it was agreed to
avoid having to return the check and attendant delays that Respondent deposit the
disputed funds in his attorney client trust account where they could remain until the
matter was resolved. The deposit was approved by the Bank and its officer initialed the
setlement check allowing it to be deposited, requiring only that Respondent sign the
Andias' names and initial also.
Respondent agreed, and as he had been similarly instructed to do so by First
Hawaiian Bank Private Banking Vice Presidents eve since 1982 when receiving twoparty settlement checks except usually jointly payable to Respondent, he deposited the
setlement check writing the names of the Andias followed by his initials as required by

First Hawaiian Bank, with First Hawaiian Bank afterwards approving the deposit by
initialing the settlement check also.

Obviously,

the disputed funds were to be kept in Respondent's client

trust

account and not released untilthe dispute was resolved, which is what Respondent and
First Hawaiian Bank intended and Respondent did so untilthe Andias approved of the
distribution of the funds suqra.

previously, for about four years Respondent had had no contact with the Andias
whatsoever, and the responsibility to keep them informed of the status of their
foreclosure case and their fees and costs was entirely the responsibility of assigned
Associates in Respondent's office; moreover the Andias had never complained to
Respondent regarding even once about anything having to do with their foreclosure
case or the Bank of America settlement before the settlement check was due'

Upon depositing the settlement check in his attorney client trust account, Mr.
Forrester testified before the Hearing Officer that he explained to Mr. Andia that his
case was not accepted on a "flat fee" basis, providing him with a copy of his signed
retainer agreement showing that the "flat fee" box was not checked, at which point

24

reportedly Mr. Andia withdrew his flat fee allegation yet raised it again at the hearing, it
seemed on the based urging of the Hearing Officer.
Respondent timely wrote and informed the Andias of the deposit into his attorney
client trust account and their responsibility for fees and costs, also providing them with

an invoice for the total charges from 2012 through 2015 in the amount of $78,202'87,
and enclosed the balance due the Andias, crediting the Andias with their initial retainer
payment after their first check bounced.

Respondent however did not charge the Andias for the more than a dozen hours
spent by Mr. Goff in mediation efforts for the Andias which ironically resulted in the
settlement, as Mr. Goff had left the law firm to join the Attorney General's Office without
billing for those hours.

Mr. Forrester advised Respondent that Mr. Andia was anxious to hide the funds
from his former wife and the State of Hawaii, wanting to keep the funds from appearing
in his name if possible, since he was behind in child support payments. Of course,
Respondent's law firm could not agree

to facilitate a fraud against the State

and

refused, which greatly upset Mr. Andia, and appears to be the reason for his anger.

to meet to discuss the distribution of the
settlement funds in his client trust account, specifically the amount payable to the
Andias, after Mr. Andia voicing objection beforehand and at the meeting solely
Mr. Andia was invited by Respondent

concerning the billing rates

of Respondent's Associates, Messrs. Goff and

Forrester,

which amounted to a $19,885.00 dispute.
Mr. Andia met Respondent at Respondent's Office clean shaven and dressed in

a business suit, explaining at the beginning of their meeting that he, Mr. Andia, was

a

successfulbusinessman with his own photography company. At the later hearing before
the Hearing Officer, however, he appeared unshaven with ragged clothing and a staged
homeless look.

Respondent explained to Mr. Andia the Associates' billing rates at the meeting
based on their superior performance and successful result as the term "reasonable" is
defined in the Hawaii Rules of Professional Conduct, and again showed Mr' Andia a

copy of the retainer agreement he signed showing that the representation was not
based on a "flat fee," but on the fees and costs incurred in his case during the past four
25

years, although the Andias were not even charged for the extensive mediation and
settlementwork.
Respondent explained to Mr. Andia specifically all of the successfulwork that his
law firm had achieved for Mr. Andia and for his wife, keeping them in their home since

2012 and securing for them

a six-figure victory just on the

Counterclaim alone which

was outside of the scope of their retainer agreement, without being paid for that work,
and that based on a contingency fee arrangement they would have owed Respondent
more.

Respondent explained to Mr. Andia that Messrs. Goff and Forrester apparently

never provided him with

a prior fee and cost statement

because as provided in the

retainer agreement he never asked for one and that he kept telling them that he had no
more money to pay the law firm for the work.
Nevertheless, we continued to do the work for the Andias.

Mr. Andia at the conclusion of their meeting agreed that his proposed share of

the distribution was reasonable and withdrew his $19,885.00 objection based on
Associate billing rates and cashed his $62,297.13 check payable from Respondent's
Client Trust Account a few days later which he had held for weeks, as well as cashing a

$8,000.00 refund check since refusing

to replenish the retainer account for the work

ahead, also payable from Respondent's Client Trust Account a week or so after cashing

the $62,297.13 check upon informing Respondent that he was changing attorneys

in

their foreclosure action still ongoing their Counterclaim no longer in the case.

Upon Mr. Andia's agreement, Respondent then and only then paid the Andias
and transferred the agreed upon $69,702.87 payable to the Dubin Law Offices from the
Respondent's Client Trust Account to Respondent's Operating Account.

Subsequently, in email correspondence with Respondent, Mr. Andia admitted in

writing that he had agreed to the distribution ("At our meeting, you gave me your
explanation and I said 'okay"' (emphasis added).
Months later, in an email to Respondent, Mr. Andia tried to explain away his
consent to the agreed upon distribution, without which Respondent would never have
removed from his client trust account those monies ($19,885.00) that Mr. Andia had
already agreed were for Respondent's law firm, Mr. Andia for the first time claiming that
26

he only agreed because he was afraid that otherwise Respondent would stop payment
on the separate $8,000 check:

I had just received a check from you in the amount of $8,000

and
understood that if I disagreed with you in our meeting that you would
most likely put a "stop payment" on the check'

ln truth, Respondent had earlier assured Mr. Andia in writing that "lf however you
wish to replace us as your counsel, the $8,000 will be immediately released to you".
Additionally, Mr. Andia's excuse for agreeing to the distribution was further belied
by the fact that he and his wife had belatedly cashed Respondent's much earlier, way
larger $62,297.13 check 10 days earlier upon which no "stop payment" had been
placed.

Meanwhile, according

to Mr. Andia, he decided to renege during a

Christmas

Party attended by several mostly unnamed attorneys, and thereafter started to accuse
Respondent of "forgery" in an effort to harm Respondent, openly telling that to local
counsel for the Bank of America, to executive officers of First Hawaiian Bank, and to
other local attorneys, including filing a police report which was ignored as not containing
any of the elements of forgery.
Coincidentally, the list of Mr. Andia's Christmas invitees emailed to Respondent
shows that one his sailing buddies has been an opposing client of Respondent's law
firm who lost a major case in this Court in 2016 which probably did not make him very
happy, 139 Haw. 167,384 P.3d 1268 (2016) (Exhibit 30).

And coincidentally, when Respondent withdrew from the Andia foreclosure case,
ironically over Mr. Andia's filed objection nevertheless approved by Judge Ayabe,
James Hochberg, an attorney who Respondent had successfully earlier sued for legal
malpractice in the First Circuit Court before Judge Border for a client for whom
Respondent had also won the ICA appeal, 212 Haw. App. LEXIS 587, 2012 WL
1951332 (2012), suddenly appeared for Mr. and Ms. Andia, entering a "special
appearance" in theirforeclosure case (Exhibit 31).

This is indeed a small community and attorneys should be protected against
vendettas.

21

Respondent in good faith, believed to be responding ethically, immediately upon
learning of Mr. Andia's about face, offered to return the $19,885 to his client trust
account and to mediate or arbitrate the dispute under the auspices of the Hawaii State
Bar Association, notwithstanding Mr. Andia's having acknowledged that he was given a

full explanation of the billing charges and billing rates previously and had given to
Respondent his approval of the distribution and having thereafter cashed both the
$62,297.13 check and the $8,000 check months earlier.

Mr. Andia, however, refused mediation or arbitration, warning that his intention
was to harm Respondent.

Mr. Andia had been a difficult client from the beginning according to the firm's
Associates working with him. Mr. Andia throughout the foreclosure litigation was, for
example, extremely hostile toward the legal system and to the opposing party and its
counsel, constantly using foul language in telephone discussions and in his emails to
Respondent's associate attorneys, writing,

for instance, that he was "sick of

being

bullshitted" by his lender and accused respected opposing counsel Pat McHenry of
being "a dirt bag and a liar".
When the police refused to prosecute Respondent for forgery, Mr. Andia accused

First Hawaiian Bank also of financial wrongdoing, threatening to sue First Hawaiian
Bank and Respondent, which he however never did, causing First Hawaiian Bank to file
a lawsuit for its exoneration in the First Circuit Court or having Respondent put the

disputed funds back into his client trust account (which Respondent initially agreed
to do but Mr. Andia refused), and causing Respondent also to file his own separate
lawsuit in First Circuit Court to have his deposit of the settlement funds placed into his
client trust account approved by that Court,
Respondent's lawsuit, assigned to Judge Crandall, was heard first.

The Andias, aware of the first hearing scheduled before Judge Crandall, did not
even show up. Judge Crandall, a very thorough judge, now retired, wanted nevertheless
to hear from the Andias, giving them their day in court, and issued an order to show
cause to each of them which was served personally on both of them to appear at the
next hearing before her, stating their objections if any to Respondent's deposit of the

z6

settlement check into his attorney client trust account and to pled their case against
Respondent and First Hawaiian Bank.

But neither Mr. Andia nor Ms. Andia bothered to even show up at the next
hearing to which they had been formally served with an OSC and subpoenaed by Judge
Crandall, and court approval for the release of Respondent's portion of the settlement
funds went uncontested.

First Hawaiian Bank's lawsuit was next heard before Judge Chang. Again, the
Andias, timely served by First Hawaiian Bank as plaintiff, did not show up at the first
hearing before Judge Chang, and First Hawaiian Bank following Judge Crandall's ruling
in Respondent's case, sought to withdraw its lawsuit before Judge Chang that sought to

have the othenryise disputed funds returned to Respondent's Client Trust Account if it
had in any way wrongfully approved the deposit of the settlement check.
The Andias' stale claim, rejected by the Honolulu Police Department and by First
Hawaiian Bank and by Respondent, and their failing to even show up in two First Circuit

Court courtrooms before two separate judges, one of whom had them served with an
order to show cause and subpoenas compelling their attendance, the Andias filed their

forgery grievance next with the ODC, whose personnel unfortunately not only lack
investigative training or judicial expertise, but whose personal personnel gotcha
incentives historically have not placed a premium on finding the truth.

The ODC prosecutor drafted a self-serving hodgepodge of

irresponsible,

blatantly false proposed findings of fact for consideration by the Hearing Officer, most of

which completely contradicted the dispositive documentation and supporting testimony
above at the hearings.

Eg.: the "flat fee" box was not checked by the Andias on their retainer agreement
(vs. FOF 66, 68); no attempt was made to represent that the Andias had signed the
back of the check, having to the contrary been initialed by Respondent and also initialed
as approved by an officer of First Hawaiian Bank (vs. FOF 91); none of those funds

were withdrawn from Respondent's client trust account or used in any way by anyone
until the withdrawal and the distribution of those funds was approved by the Andias, as
subsequently verified by Mr. Andia in an admission against interest in writing (v. FOF
105).

29

Moreover,

no substantive work contrary to the ODC was

undertaken by

Respondent or any associates until five months after retention when the complaint was
served and the Associates continued to work on the case without more funds, because

the Andias said they had no money, planning to pay when the case settled (v' FOF
102); an additional $8,000 was retained only if the Andias wanted Respondent's
Associates to continue working on the foreclosure claims which continued after the
settlement only because the Andias agreed to settle on the Counterclaim only (v. FOF
gg, 120); Respondent never refused to put the Associates'disputed $19,885 back into

his client trust account; months later after approving the distribution of the settlement
funds Mr. Andia simply reneged,
Whereupon in writing Respondent offered immediately to maintain the status quo
ante, but that offer was refused, Mr. Andia preferring instead to file a police report for
forgery, subsequently rejected, and to threaten First Hawaiian Bank who had approved

the deposit, with suit, nor did Respondent ever threaten Mr. Andia with additional
charges, only mentioning he was not even charged for all of the work (v. FOF 1 1 1).
Even more revealing are the material facts that were completely ignored by the
ODC prosecutor in his draft of the proposed findings:

E.G.: there is no mention of the undisputed fact of the two lawsuits, brought
respectfully by Respondent and by First Hawaiian Bank, in which when asked by both

presiding Judges

to

explain their positions regarding

the

money deposited in

Respondent's client trust account and whether those monies should be returned to the
client trust account and given to the Andias, they refused to even show up in court in
either case; there is no mention of the fact that the Dubin Law Offices had represented
them in their foreclosure case for close to half a decade defending against foreclosure

and prosecuting their Counterclaim to the point where the Bank of America settled for
g132,000, hardly the usual achievement in a foreclosure case, after their not having
paid there mortgage or a penny for fees or costs since February 2012; there is no
mention of the fact that after having approved the distribution of the settlement funds
according to Mr. Andia, the Andias waited months before suddenly deciding to accuse
Respondent of forgery; there is no mention of the fact that after the Andias suddenly
cried forgery, Respondent offered to put the Associates' disputed $19,885 back into his

30

client trust account, offering the alternative of mediation or arbitration, which offers were
refused, and no mention that First Hawaiian Bank approvingly initialed the deposit also.

the

Respondent's conduct was without any intention to act contrary to the wishes of
clients and was in conformity with the requirements of the Hawaii Rules of

Professional Conduct.

The ownership interests of both the clients and the Respondent were fully
protected after the Bank of America, mailing the settlement check to Respondent's
Office, the Bank having made a mistake in not making it jointly payable as the
Setlement Agreement by its terms provided for bargained for performances by both
Respondent and his clients, and all of that after Mr. Andia at first insisted in bad faith
that he had no obligation to pay Respondent anything. He wanted the entire
$132,000.00.

The check was deposited in Respondent's client trust account and kept there
until its distribution was agreed upon, pursuant to HRPC Rule 1.15(e):
When in the course of representation a lawyer is in possession of
property in which two or more persons (one of whom may be the lawyer)
claims interests, the property shall be kept separate by the lawyer until
the dispute is resolved. Disputed client funds shall be kept in a client
trust account until the dispute is resolved.
And Respondent being bound by the rest of that same Rule 1.15(e), after Mr.

Andia approved the distribution, including the funds to be paid to Respondent, the Rules
mandated that the funds be immediately removed from the client trust account:
The lawyer shall promptly distribute all portions of the property as to
which the interests are not in dispute.
Not to do so at that time would have been a HRPC violation.
Additionally, the ODC prosecutor contended that Respondent's published billing
rates were departed from in Andias' case. Yet nowhere in the HRPC is there a single
mention of the billable hour as controlling what clients are billed, not even found once,
and the Andias' retainer agreement specified fees "were subject to periodic increases".
Moreover, it was not the Respondent, but the Associates working the case alone

for almost four years who were responsible for communicating with the Andias and

31

doing the billing, for in those years Respondent did not even have any contact with the
Andias whatsoever, yet now an attempt is being made to disbar vicariously.

HRPC Rule 1.5(a) sets forth eight factors for determining the reasonableness of
fees, and notably some of the factors can be applied only after and not before the legal
services are first rendered, depending, for instance, on "the time and labor required," on
"the novelty and difficulty of the questions involved," and on "the results obtained."

And who could argue with the results obtained: $132,000 for the winning of the
Counterclaim alone after four years of effort, which the Andias wanted to run away with
all $132,000.00 for themselves, a skillful victory for which the Andias had paid nothing.

This Court's unsupported conclusory finding that Respondent violated
disciplinary rule in the handling of

a

a settlement check is contradicted by the material

record facts, and clear and convincingly by a simple ponderance of the evidence.

"Respondent did not immediately inform the clients of the receipt of the check when he
learned of it. The invoice he subsequently issued to the clients on November 7,2015
was the first billing statement or accounting since the inception of his representation of
them in February 2012 wherein he asserted $69,702.87 in fees and costs owing, based
upon an hourly rate of $385.00 an hour for associates on the case."
Andia Case, Order, page 2.

Not true. Respondent has already explained above with documentation that he
had no contact with the Andias or their case for approximately four years prior to his
office receiving the settlement check, that keeping him informed was the responsibility
of their assigned attorneys, and that the Andias were immediately paid all undisputed
amounts as soon as the settlement check cleared and as Respondent best recalls even
shortly before that Rhode lsland check cleared in his client trust account.

"That rate was unreasonable because it exceeded by $1 15.00 per hour the rate agreed
upon in the retainer agreement for associates and was also applied to one associate for
work done at a time when that associate was not licensed to practice law in this
jurisdiction". Andia Case, Order, page 2.

32

the

Not true. The Court has failed to apply the "reasonableness" standard for judging
appropriateness of fees found in its own Rule 1.5(a) of the Hawaii Rules of

professional Conduct, since some of the factors adding to hourly rates can only be
applied after and not before tt.le legal services are first rendered, depending, for
instance, on "the time and labor required," on "the novelty and difficulty of the questions
involved," and on "the results obtained."

ln Andias' situation, Respondent was paid nothing for the successfulwork of his
law firm for four years on the Counterclaim, yielding $132,000.00 in settlementfunds,
which not only was a very successful outcome challenging loan modification abuses,
but to this day an unprecedented recovery for any homeowner.

Additionally, the Andias in those four years while Respondent's law firm pursued
their Counterclaim (1) saved a total of more than $420,000.00, supra, not paying any
legal fees or having to pay alternatively for renting elsewhere, nor being burdened with
any mortgage payments or any real property tax or hazard insurance obligations instead
being paid by their lender, plus (2) escaping hundreds of thousands of dollars more in

any deficiency judgment, while being offered an attractive loan modification terminating
the foreclosure.

All of this was reflected in the above questioned billing rates, for that is the
language of the day, the "billable hour," notwithstanding that nowhere in Rule 1'5(a) is
the ,'billable hour" mentioned or anywhere for that matter mentioned throughout the
Hawaii Rules of Professional Conduct

This Court might be surprised to learn that when Respondent began the practice
of law in 1g64 there was no such thing as the "billable hour" or "hourly billable rate'"
lnstead, clients were billed based mainly upon value of legal seryices, the risk of
nonrecovery, and results obtained, precisely as set forth in Rule 1.5(a), the century old
language of which still comprises the ABA standards of reasonableness to this day.

The history of the application of the ABA standard of "reasonableness"

is

thoroughly explained in a paper published in the 1977 University of Pennsylvania Law
Review justifying Respondent's billing conduct in this case (Exhibit 32).
How does this Court justify on this point imposing the professionaldeath penalty
on Respondent without even applying its own published "reasonableness" standards?

33

Finally, as for Mr. Forrester, not only was he a Member of the NevadaBar before

being employed by Respondent, but he became

a

Member of the Hawaii Bar a few

months after he started working on the case at which time thereafter the majority of his
billing on the Andia case occurred.
Moreover, why is all of this even any issue because Mr. Andia raised the same

questions

at his meeting with Respondent shortly after the

settlement check was

received, all of this was explained to Mr. Andia, and he agreed with the billing which he

later acknowledged in written he had approved, and it was only then that the disputed
settlementfunds sitting safely in Respondent's Client Trust Accountwere released.
"We also find the clients were never contacted or consulted regarding an amendment of
the agreed-upon rate. As a result, Respondent overcharged the clients a minimum of
$19,885.00." Andia Case, Order, page 2.

Not true. For all of the reasons already explained above, Respondent had no
contact with the Andias for the approximately four years leading up to his office
receiving the Bank of America settlement check which is not contested by anyone, and

it was not Respondent's responsibility, but the responsibility of the attorney assigned to
the Andias'case to keep them informed.

And, if that was not done, and there is no contrary testimony other than that from

Mr. Andia, the "agreed-upon rate," notwithstanding Mr. Andia's discredited insistence
that there was to the contrary a "flat fee" agreement only, was followed in the retainer
agreement by the language subject to periodic change,

And, in any event the amount billed according to this Court's own prescribed
standards of reasonableness, could not be determined until the results were known
without contradicting the laws of physics.

And, in any event, Mr. Andia admittedly ultimately agreed upon the billings.
All of the above facts, again,

I fully documented

in Three Parts in Exhibit 29.

34

in the Andia Fact Book set forth

G. Respondent Was Denied Due Process

as

This Court has for decades been a national leader in assuring that court as well
agency hearings are conducted fairly pursuant to the full requirements of due

process of law, as mandated by both Section 5 of Article I of our State Constitution and
by the Fifth and Fourteenth Amendments to the United States Constitution, before
approving the results of any decision-making official.

A fair hearing, however, means much more than sitting in a courtroom or around
a table in front of a decision makerwhether robed or not'

It requires fairness in substance and is not satisfied by mere fairness in form.

The record below, in addition to being factual flawed as shown above, is also
riddled with due process hearing violations, as identified below, far more serious and
deserving of much more consideration, it is respectfully submitted, than set forth in this
Court's Order of Disbarment, otherwise ignored with a one-sentence cryptic rejection:

"Respondent's arguments regarding alleged violations

of his right to due process

throughout the disciplinary process we find them to be without merit," Order, page 3'

1. Due Process Prehearing Violations
From the outset, the ODC prosecutors abandoned any pretense in Respondent's

cases of impartial fact-finding in favor of "gotcha" investigations, assuming everything
asserted against Respondent to be true, refusing his request for a meeting until after

their petitions were filed, supra, and contrary to DB Rule 13 docketing the cases
immediately before any investigation whatsoeverwas undertaken by them.

The culture at the ODC for decades now has been to represent complainants as
if they were their own private clients, and to weigh their chances of promotion to be
increased by the number of suspensions or disbarments they can rack up, especially

against high profile attorneys like Respondent unless having the right political
affiliations, while increasing the financial burden of attorneys having to defend
themselves with ironically the ODC being funded by Bar dues.

Any fair reading of the hearing transcripts reveals a complete absence of any
fact-finding effort on the part of the ODC prosecutor, at one point totally lacking even

35

any civility, banging his fist on the table for a full minute when not getting the answers
he wanted from the Respondent, while the Hearing Officer did nothing but look away.

There is also a question of fairness and trustworthiness of the ODC's pretrial
investigation depending how long otherwise stale grievances should be able to be raised

and attorneys investigated. especially anonymously by a Joe Smith, and belatedly
burdened.

Two of the charges against Respondent here were decades old when brought.
Other States set time limits on bringing attorney disciplinary grievance investigations,
since memories fade, witnesses die, and documents lost.
For example, some States restrict fling of grievances against attorneys to 2 years

(e.g., West Virginia), to 4 years (e.9., Nevada and Utah), to 6 years (e.9., Alabama), or

to a "reasonable" time (e.g., Ohio and Texas), of which this Court and its staff may take
judicialnotice.

Another pretrial due process right violated here was when the Petition for
Discipline and the Amended Petition for Discipline made no mention of requesting
disbarment,

in their concluding prayers for relief only reciting that

Respondent be

required to take the Multistate Professional Responsibility Exam while obliquely adding
whatever other discipline that might be imposed.

It was only at a subsequent prehearing conference that the ODC prosecutors
threaten disbarment, which was after Respondent had filed his position statements and

had decided to represent himself, and most importantly had not sought any Rule
2.22(a)(7) confidentiality extension before the time to do so had expired, which led to
irresponsible one-sided "disbarment" press accounts that prematurely devasted
Respondent's law practice, adding tremendously

to his financial burden of defending

himself.

That failure to disclose the actual recommended penalties at the outset of
charging in disciplinary proceedings rendered the Amended Petition below procedurally
in violation of fundamental fairness.

Given the recognized quasi-criminal nature

of

disciplinary proceedings, not

informing the accused of the specific potential penalties when charged is anathema to

36

due process of law and unheard of in Hawaii agency proceedings except within the
ODC.

2.

Due Process Hearing Violations

Respondent was charged with professional ethics violations in four separate and
unrelated cases. yet those cases were tried together in the same combined hearings

before the same Hearing Officer and where witnesses in each case, for the
convenience of the ODC prosecutor said to be conducting at the same time other
hearings in other cases, and for the convenience of witnesses, were taken out of order
interspersed between cases, Respondent constantly objecting as making it very difficult

to keep track of case specific testimony.
smorgasbord of witness testimony not only deprived Respondent of a
meaningful and coherent hearing as to each of the four cases, but having the same
Hearing Officer preside over all four cases at the same time, which Respondent timely

Such

objected

a

to pursuant to DB Rule 21(e)

requesting

a

three-person Hearing Panel or

separate Hearing Officers for each case instead), cross-contaminated the appointed
Hearing Officer's eventual decision making as is evident by his one-paragraph,
overlappi ng, conclud ing,

Furthermore,

m al u m proh i bitu

m "adoption" explanation, supra.

as still another due process

hearing violation

of

bedrock

proportions, DB Rule 9(c) requires as does due process everywhere that an appointed
Hearing Officer be free of the appearance of a conflict of interest, and if so to abstain
from hearing a case, and DB Rule 21(a) provides for a party to challenge presiding over
a disciplinary case by such a conflicted Hearing Officer.

As soon as Respondent recognized that Mr. Hughes, the appointed

Hearing

Officer, had been opposing counsel in one of Respondent's appellate cases, Movle v. Y
& y Hvup Shin Corporation,llS Haw.385, 191 P.3d 1062(2008), reversed in favorof
Respondent's client by this Court, Respondent immediately requested Mr. Hughes'
recusal at the pretrial conference.

Mr. Hughes heard the motion, filed his denial of the motion in writing, claiming
that the Movle case had been terminated, even though Respondent provided with
uncontroverted documentary evidence that the case was still active in First Circuit Court
37

and indeed that settlement offers were being exchanged with Respondent and

Mr.

Hughes. Mr. Hughes still refused to disqualify himself.
No objection to the recusal request as being untimely was made by Mr. Hughes.

Due to DB Rule 20(e), no motions being permitted, Respondent could only
preserve that due process challenge for later appealto the Board.
Respondent was also denied his due process right to cross-examine two material

witnesses, one subpoenaed by the ODC who refused to testify in person, and another

not called by the ODC

- yet both of them were ostensibly adroitly permitted to testify

over Respondent's objection by the Hearing Officer through the testimony of surrogates.
First, Ms. Andia, subpoenaed, ignored the ODC subpoena just as she did the
OSC from Judges Crandall and Chang, after Mr. Andia informed the Hearing Officer,

offering no proof of illness, that she was too emotional to attend, which was after Mr.
Andia was allowed to freely testify on her behalf her state of mind and alleged damages.

Second, Mr. Kern, secured as a witness by the ODC from Nevada, appeared by

telephone, his placing on

the record the

surrogate testimony

as to Mr.

Harkey's

recollections, particularly as to client billings, without any explanation why Mr. Harkey
was refusing to testify on his own behalf.
Meanwhile, of course "Mr. Smith" did not testify, his anonymous DCCA complaint

believed to have been penned by Ms. Andia, which she would have been asked had
she appeared, which is believed to be why she refused to appear.

And finally, the Hearing Officer issued untrustworthy finding of fact by adopting
verbatim, not changing a single word or punctuation mark, the partisan findings of the
ODC prosecutor.

Such "adopted findings of fact and conclusions of law" - when finders of fact
lazily merely swallow whole proposed findings and conclusions prepared by prevailing
parties as was done here -- have always been subject to great mistrust by courts.

Such mechanically "adopted findings of fact and conclusions of law" moreover
further denied Respondent an independent decision maker, considered contrary to
sound adjudicative policy, causing disrespect for a tribunalor agency, raising additional
concerns regarding due process requirements.

38

Moreover, the Hearing Officer's adopted findings were substantially incomplete,
failing to address many materialfactual issues in the case, supra, another reason why
they were untrustworthy, as if the voluntary Hearing Officer, an opposing attorney at the

time in one of Respondent's cases, was abandoning his decision-making duties,
another due process hearing violation.

3.

Due Process Post-Hearing Violations

The Board on February 13, 2019, also adopted verbatim the ODC's Findings of Fact
and Recommendations which had been adopted verbatim by the Hearing Officer, and in

so doing, unknown to Respondent at the time, the Board Chairperson and one loud
outspoken Board Member, Mr. Horovitz, concealed from Respondent, subsequently
admitted by them, that Mr. Horovitz had a conflict of interest as one of two opposing
counsel in two of Respondent's cases.

DB Rule 2.4(c) prohibits Board Members "from taking part in any proceeding in
which a judge, similarly situated, would be required to abstain," and the Hawaii Revised
Code of Judicial Conduct, Rule 1.2, prohibits participation of a judge where that
participation presents the "appearance of impropriety," and
"disqualification" or "recusal" of a judge in such circumstances.

its Rule 2.11 requires

Accordingly, the Board Chair went around the room at the December 13,2018

Board Hearing to consider the Hearing Officer's Report, asking if any Board Member
had a conflict of interest adverse to Respondent'

Two Board Members raised their hands, Board Member Jeffrey P. Miller
disclosing that he has been and still is an opposing attorney in one of Respondent's
cases (Sakal) recently before this Court in which Respondent's client prevailed, and the
other Board Member, Mr. O'Neill, disclosed that he was an IRS lawyer during the time
involved in the Smith matter.

However, Respondent immediately waived both conflicts of interest as not
requiring disqualification as there had been no acrimony among counsel in the Sakai
case and Mr. O'Neill stated that he had no connection with the IRS matter. No other
Board Member nor the Board Chair made any such disclosure and Respondent
recognized no other Board Member who had,
39

The Board, adopting verbatim on February 13,2019 the Hearing Officer's Report
which adopted verbatim the ODC's flawed, prosecutorial, self-serving version of the
facts, nevertheless contrary to this Court's Rule 3.7(d) waited months without turning in
its Report to this Court, during which time on or about April 2, 2019 Respondent learned

that another Board Member, Mr. Horovitz, participating in the Board's vote, had a
conflict of interest as opposing counsel in two of Respondent's cases, sitting at the far
end of a very large conference table unrecognized by Respondent until after the Board
hearing on December 13, 2018 had been adjourned, in which two cases personal
acrimony between the two had been ongoing.
Respondent immediately filed to disqualify Mr. Horovilz and the entire Board,
seeking to set aside the Board's parroted decision of the ODC's findings.

Another Board hearing was held on April 25, 2019, to consider Respondent's
disqualification motion, at which hearing the Board Chairperson disclosed for the first
time that Mr. Horovitz had met with him secretly before the December 13, 2018 meeting
and had disclosed his conflict of interest to the Board Chairperson, who thereafter failed

to disclose it to Respondent at the earlier December 13,2018, Board Meeting, although
inconsistently inviting the conflicts of interest of Messrs. Miller and O'Neill to be
disclosed at that same hearing

-

the Board then concluding that Respondent's

objection was nevertheless untimely.

That Decision also violated the Due Process Clauses of both the Hawaii State
Constitution and the United States Constitution, not depending, for instance, upon
whether Mr. Horovitz, the disqualified Board Member, cast the deciding vote or not.

And throughout the Board's review, it hindered Respondent's ability to defend
himself in many other ways, e.g., denying page enlargement requiring all four cases be
briefed in 14-point type with double spacing throughout the opening brief (DB Rule 24),
modifications denied, explaining in writing erroneously that that was the requirement for
Hawaii appellate briefs.

Finally, Supreme Court Rule 2.7(d) requires that any Board vote recommending
sanctions requires majority approval of the Board, yet over Respondent's objection the
Board refused to announce its vote recommending the disbarment of Respondent and
although that same Rule requires that it promptly submit its Report to this Court it waited
40

months before doing so and when it did it did not submit to this Court its earlier
announced and published Report, but hired Charlene Norris to submit her own version
of the Board Report, whereas this Court disqualified her due to having represented
Respondent in the past, but left her penned Report in the Record as the Board Report
even though it was not the Board Report originally entered the Board.

What was originally entered pursuant to the requirements of your Rule 2.?(d) was
a verbatim adoption of the Hearing Officer's verbatim adoption of the proposed findings
and recommendation of the ODC prosecutor.
D. Legal Argument
Disbarment is a professional death sentence and must be subjected to the strictest

procedural due process scrutiny, as was explained by the United States Court of
Appeals in ln re Fisher, 179 F.3d 361 , 370 (1950):

The disbarment of an attorney is the destruction of his professional
life, his character, and his livelihood.***** A removal of an attorney
from practice for a period of years entails the complete loss of a
clientele with its consequent uphill road of patient waiting to again reestablish himself in the eyes of the public, in the good graces of the
courts and his fellow lawyers. ln the meantime, his income and
* * * * * The power, however, is not
livelihood have ceased to exist.
an arbitrary and despotic one, to be exercised at the pleasure of the
court, or from passion, prejudice, or personal hostility; but it is the
duty of the court to exercise and regulate it by a sound and just
judicial discretion, whereby the rights and independence of the bar
may be as scrupulously guarded and maintained by the court, as the
rights and dignity of the court itself.

1. This Gourt's Gonclusions Are Based on Untrustworthy lnsufficient Findings

Findings

of fact are required to be "clear, specific, and complete,"

and

"sufficiently comprehensive and pertinent to the issues to form a basis for the decision

and whether they are supported by the evidence." Shannon v. Murphv, 49 Haw. 661,
668, 426 P.2d 816

(1

967).

State courts as well as state agencies similady are required to make findings of
fact in proceedings which are injunctive in nature that are "definite" and "pertinent," and
41

"they must include as much of the subsidiary facts as are necessary to disclose to this
court the steps by which the trial court reached his ultimate conclusion on each factual

issue." Lopez v. Tavares, 51 Haw. 94,97,451 P.2d 804, rehearing denied, 51 Haw'
141,451 P.2d

8O4 (1 969).

"A bare statement of ultimate conclusion" is insufficient under Hawaii case law to
, 2 Haw ' App' 92, 94, 626 P.2d
support a judgment. Scott v. Contractors L

1gg (1g81); such egregious an error requires orders and judgments to normally be
vacated and remanded on that ground alone. Ventura v. Grace, 3 Haw. App. 371 ,376,
650 P.2d 620 (1982).
Neither the ODC nor the Hearing Officer nor the Board addressed any of the
material facts set forth in this Motion bearing directly on the conduct of the Respondent,

and for that reason alone this Court's eight above conclusory statements should be
withdrawn.
2. This Court's Gonclusions Are Based on Untrustworthy Adopted Findings

The Hearing Officer adopted verbatim, not changing a single word or punctuation
mark, the partisan findings of the ODC prosecutorand so did the Board. Such "adopted
findings of fact and conclusions of law" - when finders of fact merely swallow whole
proposed findings and conclusions prepared by prevailing parties as was done here -have always been subject to great mistrust as explained by the United States Supreme

Court in United States v El Paso Natural Gas Co ., 376 U.S. 651, 656-657 and no. 4
(1964) (rubber stamping adopted findings "has been denounced by every court of
appeals save one" as "an abandonment of the duty and trust" placed in judges).
Such mechanically "adopted findings of fact and conclusions of law" are
furthermore considered contrary to sound adjudicative policy, causing disrespect for the
tribunal as explained by the United States Court of Appeals for the Ninth Circuit in Photo
Electronics Corp. v. Enqland , 581

F

.2d 772,776-777 (9th Cir. 1 978) ("wholesale adoption

of the prevailing party's proposed findings complicates the problems of appellate

review [t raises] the possibility that there was insufficient independent

evaluation

of the evidence and may cause the losing party to believe that his position has not been
given the consideration it deserves. These concerns have caused us to
42

call for more careful scrutiny of adopted

findings

We scrutinize adopted findings

by conducting a painstaking review of the lower court proceedings and the evidence").

With respect to the eight conclusory findings created by the ODC, this Court
should have done to same before issuing a professional death sentence against
Respondent.

Neither the ODC nor the Hearing Officer nor the Board furthermore addressed

any of the material facts set forth in this Motion bearing directly on the conduct of the
Respondent, and for that reason alone this Court's eight above adopted conclusory
statements should be withdrawn.
3. This Court's Gonclusions Are Not Based on Glear and Convincing Evidence

The actual documented facts set forth above, in contrast to this Court's threetime adopted, insufficient, ODC proposed findings, bear no resemblance to facts that
actually occurred in the underlying cases nor with regard to Respondent's truly
unblemished legal career free of any imposition by any court of any ethical discipline
upon him with respect to a single client out of many thousands.

lndeed, Respondent's record number of client testimonials attests to how well his
legal services are appreciated and respected, and how successful he has been for his
clients, most of whom would be overjoyed to secure such a settlement, for instance, as

the Andias did, especially after free of their monthly mortgage for four years and not
paying for legal services (Exhibit 33).

Yet those same character witnesses, even a few, were excluded from testifying
at the hearings by the Hearing Officer..

Surely common sense, surely an integral part of legal reasoning, suggests for
instance that the Andias have had a personal motive other than protecting the public.

4.

This Court's Conclusions Are Those

of

Disqualified Triers of Fact

The presence of Mr. Horovitz alone on the Board voting to disbar Respondent is
reason enough to withdraw this Court's Order of Disbarment, especially considering that
he and the Chairperson sought to hide that fact, supra.

43

ln Aetna Life lnsurance v. Lavoie,475 U.S.813 (1986), for instance, the United
States Supreme Court vacated an Alabama Supreme Court judgment because a state
supreme court judge, one of the five judges entering the judgment, was disqualified,
Justices Brennan and Blackburn finding it irrelevant that the disqualified judge had cast

the deciding vote, 475 U.S. at 830-831, and Justice Blackburn, with whom Justice
Marshall concurred, went even further, concluding, 475 U.S. at 831-833:

For me, Justice Embry's mere participation in the shared enterprise
of appellate decisionmaking - whether or not he ultimately wrote, or
even joined, the Alabama Supreme Court's opinion -- posed an
yll.::ptrble danger of subtly distorting the decisionmaking process.
And to suggest that the author of an opinion where the final vote is 5
to 4 somehow plays a peculiarly decisive "leading role," ante, at828,
ignores the possibility of a case where the author's powers of
persuasion produce an even larger margin of votes. lt makes little
sense to intimate that if Justice Embry's dissent had led two
colleagues to switch their votes, and the final vote had been 6 to 3,
Aetna would somehow not have been injured by his participation.

More importantly, even if Justice Embry had not written the court's
opinion, his participation in the case would have violated the Due
Process Clause. Our experience should tell us that the concessions
extracted as the price of joining an opinion may influence its shape
as decisively as the sentiments of its nominal author. To discern a
constitutionally significant difference between the author of an
opinion and the other judges who participated in a case ignores the
possibility that the collegial decisionmaking process that is the
hallmark of multimember courts led the author to alter the tone and
actual holding of the opinion to reach a majority, or to attain

unanimity----The violation of the Due Process Clause occurred when Justice
Embry sat on this case, for it was then the danger arose that his vote
and his views, potentially tainted by his interest in the pending Blue
Cross suit, would influence the votes and views of his colleagues.
The remaining events -- that another justice switched his vote and
that Justice Embry wrote the court's opinion -- illustrate, but do not
create, the constitutional infirmity that requires us to vacate the
judgment of the Alabama Supreme Court.

Morerecently,theUnitedStatesSupremeCourtin@,136
S. Ct. 1S99 (2016), a death penalty case akin to Respondent's

professional death

penalty disciplinary sentence, confronted the same issue as in Lavoie, and in a 5-to-3
44

decision by Justice Kennedy writing for the majority, adopted the language and the
reasoning of the concurring opinions, supra, in Lavoie, 134 S. Ct. at 144-147:

ln past cases, the Court has not had to decide the question whether
a due process violation arising from a jurist's failure to recuse amounts
to harmless error if the jurist is on a multimember court and the jurist's
vote was not decisive. See Lavoie. supra. at 827-828, 106
S. Cf. 1580, 89 L. Ed.2d 823 (addressing "the question whethera
decision of a multimember tribunal must be vacated because of the

participation of one member who had an interest in the outcome of
the case," where that member's vote was outcome determinative)
- - . - [and] even if the judge in question did not cast a deciding vote.
The Court has little trouble concluding that a due process violation
arising from the participation of an interested judge is a defect "not
amenable" to harmless-error review, regardless of whether the
judge's vote was dispositive . Puckett v. United Sfafeg 556 U. S. 129,
141, 129 S. Cf. 1423, 173 L. Ed. 2d 266 (2009) (emphasis deleted).
The deliberations of an appellate panel, as a general rule, are
confidential. As a result, it is neither possible nor productive to
inquire whetherthe jurist in question might have influenced the views
of his or her colleagues during the decisionmaking process. . - . - As
Justice Brennan wrote in his Lavoie concurrence,

"The description of an opinion as being 'for the court'
connotes more than merely that the opinion has been joined
by a majority of the participating judges. lt reflects the fact
that these judges have exchanged ideas and arguments in
deciding the case. lt reflects the collective process of
deliberation which shapes the court's perceptions of which
issues must be addressed and, more importantly, how they
must be addressed. And, while the influence of any single
participant in this process can never be measured with
precision, experience teaches us that each member's
involvement plays a part in shaping the court's ultimate
disposition ." 475 U. S., at 831, 706 S. Ct. 1580, 89 L. Ed. 2d
823.

These considerations illustrate, moreover, that it does not matter
whether the disqualified judge's vote was necessary to the
disposition of the case. The fact that the interested judge's vote was
not dispositive may mean only that the judge was successful in
persuading most members of the court to accept his or her position.
Moreover, being tried twice by opposing counsel, first at the ODC level by Hearing

Office Hughes, and then being tried again at the Board level by Board Member Horovitz,

should shock the due process conscience of any court, especially when no
45

conflict disclosure or recusal statement was made, even after the Board Chairperson
and Mr. Horovitz when challenged admitted that they had meet secretly just before the
Board met to decide Respondent's fact, they discussed Mr. Horovitz's conflict, yet said
nothing while the Board Chairperson had other attorneys on the Board raise their hands
for the same undisclosed reason.

5. This Court's Conclusions

Deny Respondent a Meaningful Hearing

This Court is no stranger to the procedural due process requirements of a fair
hearing, as well of the past overreaching by the ODC, Breinerv. Sunderland,l12Haw.
60, 143 P.3d 1262

(2OOG), upholding

the right to a meaningful hearing in virtuallyevery

possible context; see, for instance:

ln re Smith.68 Haw.466,471,719 P.2d 397 (1986)

(Hawaiian Homes

Commission writ-of-assistance lease cancellation and seizure held violation of due
process of law under Section 5, Article I of the Constitution of the State of Hawaii and

the Fifth Amendment of the Constitution of the United States of America, because of
lack a hearing);

Bank of Hawaii v. Kunimoto,

gl

Haw. 372,388,984 P.2d 1198 (1999) (a

criticized pro hac vice attorney has the right to a hearing);

State v. Chri stian. 88 Haw. 407,424,967 P.2d 239 (1998) (a criminaldefendant
must be given a reasonable opportunityto defend);
Korean Buddhist Dae Won Sa Temple of Hawaii v. Sullivan, 87 Haw. 217,243,

953 P.2d 1315 (1998) (reaffirming the right to be heard in height variance dispute,
otherwise find ing harmless error);
Kerman v. Tanaka, 75 Haw. 1, 22,27-28,856 P.2d 1207, cert. denied, 510 U.S.

1119 (1993) (administrative revocation of driver's license upheld where reasonable
opportunity to be heard protected);

Evans v. Takao,74 Haw.267,282-283,842 P.2d 255 (1992) (reasonable
opportunity to be heard required in contempt proceedings);

Sandv Bea
Haw.

261

ncil of Citv and Countv of Honolulu. 70

Defense Fund v. Citv

, 378, 773 P.2d 250 (1989) (use permits require reasonable opportunity to be

heard, othenruise finding no due process violation);
46

ln re Smith. 68 Haw.466, 471,719 P.2d 397 (1986) (Hawaiian Homes
Commission writ-of-assistance lease cancellation and seizure held violation

of

due

process of law because of lack a hearing); and

KNG Corooration v. Kim,107 Haw. 73,80, 82, 110 P.3d 397, reconsideration
denied, 107 Haw. 348,113 P.3d 799(2005) (reasonable noticeand an opportunityto be
heard are "the basic elements of procedural due process of law," decided in the context
of the imposition of a rent trust fund).
It is not a hearing, it is submitted, in the due process sense when relevant material

facts as here are simply ignored by the trier of fact, or an absent witness although
subpoenaed is allowed to testify as here through her husband yet unable to be crossexamined, or the decision makers at two levels consist of one's opposing counsel in
several cases..

6. This Gourt's Disbarment

Order Should Be Reconsidered as Manifest Error

The policy of the law favors disposition of litigation on the merits. Webb v. Harvev.

103 Haw.63,67,79 P.3d 681,685 (2003) (citing Comoass Develooment. lnc. v.
Blevins, 10 Haw. App. 388, 402, 876 P.2d 1335, 1 341 (1994)); Rearden Familv Trust v.
Wisenbaker, 101 Haw.237,255,65 P.3d 1046 (2003) (citing Oahu Plumbinq & Sheet
Metal. lnc. v. Kona Constr.. lnc.,60 Haw. 372,380,590 P.2d 57O,576 (1979) (noting

"the preference for giving parties an opportunity to litigate claims or defenses on the
merits")).
Reconsideration is one means where appropriate of achieving that goal.

There is no "motion for reconsideration" by that express nomenclature at least
provided for anywhere in our Rules.

Recognizing the understandable need for flexibility, however, in allowing some

intelligent method

for calling to a court's attention and for its reviewing

possible

decisional errors, without first subjecting the parties and our already case-clogged
appellate courts to othenruise potentially unnecessary, wasteful, and expensive further

proceedings and delay,

in this case in federal court, courts have always

freely

permitted, although admittedly not encouraged such motions except in clear cases of
manifest error.
47

And motions for reconsideration have therefore frequently been employed for
that purpose in Hawaii and in our federal courts from whose civil practice rules Hawaii
has borrowed verbatim, Edward H. Bohlin Co. v. Banninq Co., 6 F.3d 350 (Sth Cir.
1ee3).

For instance, in the well-known Wright and Miller Treatise on ElgIAl-@tj€
and Procedure, 11 Fed. Prac. & Proc. Civ.2d, Section 2810.1 (rev. 1995), four separate
and independent grounds for proper Rule 59(e) consideration are identified:
First, the movant may demonstrate that the motion is necessary
to correct manifest errors of law or fact upon which the judgment
is based.
Second, the motion may be granted so that the moving party may
present newly discovered or previously unavailable evidence.

Third, the motion will be granted if necessary to prevent manifest
injustice. Serious misconduct of counsel may justify relief under
this theory. [EmPhasis added]
Fourth, a Rule 59(e) motion may be justified by an intervening
change in controlling law.
The federal case law, upon which Hawaii law relating to reconsideration is based,
recognizes the obvious, that none of us are always if ever infallible - neither judges, nor
law clerks, and certainly not attorneys

- amply demonstrating that there is room in American

law for changes of mind.

Thus,

in Aflanfin

I anal

Enr rnrlafinn

lno

v

K rn Elrnc

lnn

841 F. Supp

51,54,55 (N.D. N.Y. 1993), Chief Judge McAvoy granted reconsideration, "the court
believing that its earlier ruling was in error," having been based, that Court freely
admitted, upon its "misunderstanding" of the applicable law.

And, as explained by the United States Court of Appeals for the First Circuit in
F.D.|.C. v. World University, |nc.,978 F.2d 10, 16 (1st Cir. 1992), "Rule 59(e) motions
are 'aimed at reconsideration, not initial consideration"' (citations omitted), and as such,

by their very nature -- as the name of the motion itself more than implies -- they are
addressed to matters already heard and litigated.

That does not mean, of course, that motions seeking reconsideration allow
Movants to merely reargue a case

- and that is not what Respondent is doing here - for
48

as explained succinctly by the United States District Court for the District of New York in
Motor Vehicles Manufacturers Association of the United States. lnc. v. New York State
Department of Environmental Conservation,

S3l F. Supp.57,60-61 (N.D.N.Y.

1993),

there is a difference between reargument and the correction of manifest error:
Nonetheless, a motion for reconsideration under Rule 59(e)
is not simply a second opportunity for the movant to advance
arguments already rejected, or to present evidence which was
available but not previously introduced. Rather, the movant
must come fonvard and specifically identify those matters
which it believes the Court has overlooked and why such matters
would render the Court's prior decision erroneous. Absent such
a showing, the Court should not reconsider its earlier ruling. ln
the instant case Defendants have made an appropriate showing.
The record before the Court supports reconsideration at this time,
and for the reasons expressed below, the judgment previously
entered is hereby vacated ["because there are material questions
of fact remaining"l.

To suggest to the contrary, that a court lacks the power to correct its own
mistakes is not only contrary to sound judicial policy, but not the law anywhere.

Going back to the origin of Rule 59(e), for instance, the twin of Rule 40 of the
Hawaii Rules of Appellate Procedure, as the United States Supreme Court in White v.

New Hamoshire Departm

of Emolovment Securitv , 455 U.S. 445, 450,

researched

and explained:
Rule 59(e) was added to the Federal Rules of Civil Procedure
in 1946. lts draftsmen had a clear and narrow aim. According
to the accompanying Advisory Committee Report, the Rule was
adopted to "mak[e] clear that the district court possesses the
powed' to rectify its own mistakes in the period immediately
following the entry of judgment.

This Court has furthermore described Hawaii's Rule 59(e) as even more liberal in

this regard than its federal counterpart, Sousaris v. Miller. 92 Haw. 505,513 n.9,993
P.2d 539 (2000).

And Respondent had no way of knowing which ODC arguments out of many this
Court would single out as the basis for its Order of Disbarment.

49

E. Relief Sought by ResPondent

Respondent responded in each situation above in complete conformity with the
applicable Hawaii and ABA Rules of ProfessionalConduct'
For all of the above reasons, this Court is therefore respectfully requested take a
second look at the Record for yourselves and to order the following relief in the protection
of the presumption of innocence, alternatively or combined as you may deem appropriate:

First,

to suspend the Rules allowing for the studied

reexamination of these

important issues given the severity of this Court's Order of Disbarment, and staying all
related deadlines pending a decision on this Motion for Reconsideration, and consider
scheduling an oral argument to clarify the Record, and if the Court wishes, Respondent
will have counselrepresent him at any scheduled oral argument, and/or

Secon4 during the consideration of this Motion for Reconsideration and should
thereafter this Motion for Reconsideration be denied,

to at once stay all related

deadlines in order to allow for an orderly transition.
Respondent is responsible for almost 400 cases in our courts and presently on
appeal, several in this Court.

Time is therefore needed to restructure his law firm without him, to protect his
dozen employees and their families and children from sudden unemployment, to protect
his clients from sudden loss of representation many of whom have no money to employ
replacement counsel for their pro bono cases, and

to protect court calendars on

tslands from sudden incalculable scheduling disruptions'
DATED: Honolulu, Hawaii; September 21, 2020.

JOHN
GARY VICTOR DUBIN
Attorneys for Respondent

50

all

scAD-19-0000561

IN THE SUPREME COURT OFTHE

STATI

OF

OFFICE OF DISCIPLINARY COUNSEL,
Petitioner,
VS.

GARY VICTOR DUBIN,
Respondent.
DECLARATION OF GARY VICTOR DUBIN
IN SUPPORT OF RECONSIDERATION
John D. Waihee, lll 1864
Gary Victor Dubin 3181
Dubin Law Offices
55 Merchant Street, Suite 3100
Honolulu, Hawaii 96813
Telephone: (808) 537-2300
Facsimile: (808) 523-7733
E-Mail: jwaihee@dubinlaw.net
E-Mail: gdubin@dubinlaw.net
Attorneys for ResPondent

HAWAII

DECLARATION OF GARY VICTOR DUBIN IN SUPPORT OF RECONSIDERATION
I, GARYVICTOR DUBIN, DECLARE:

1. I am the Respondent in these proceedings, and I make the within statements
based upon my own personal firsthand knowledge, pursuant to HRAP Rule 40(b), and
that the factualrecitals in these Motion Papers are true and correct as are the Exhibits.

2. I am begging every Member of this Court to personally review these motion
papers, because the conclusions set forth in this Court's disbarment order are not
consistent with and in fact are often contradicted by the actual underlying record.

3. Please allow me this one last request, as contrary to your finding, I have never
before been disciplined for ethicalviolations against a client, practicing for 57 years.

4. I came to Honolulu nearly 40 years ago and have gained tremendous, deserved
respect for every Member of this Court, including those Justices on all sides of your more

recent 3-2 opinions, and appreciate the role as advocate that I have been privileged to
play in some of this Court's most important consumer protection decisions.

5. ln fact, t have won over 100 Hawaii appeals, including on ceftiorarl review

in

this Court and in the United States Supreme Court, with more granted review now
pending, mostly in the protection of Hawaii homeowners as well as Hawaii businesses
owning real properties, and I have so much more to contribute stillto this community.

6. At the same time, I am mindful of the important and large workload of this
Court and respectful of this Court's limited time, especially your being one Member
short and having to coup now with the problems caused for the Judiciary by COVID-19.

7. Nevertheless, neither I nor any other attorney should have his life, especially

at 82, ended in such mistaken disgrace on a misapprehended, rambling, voluminous,
hodgepodge of a record, without being granted this one final courtesy and request.
I declare under penalty of law that the foregoing is true and correct. Executed at

Honolulu, Hawaii, on September 21 , 2020
GA

scAD-19-0000561

IN

THf

SUPREME GOURT OFTHE STATE OFHAWAII

OFFICE OF DISCIPLINARY COUNSEL,
Petitioner,
VS.

GARY VICTOR DUBIN,
Respondent.
DECLARATION OF JOHN D. WAIHEE, III
IN SUPPORT OF RECONSIDERATION
John D. Waihee, lll 1864
Gary Victor Dubin 3181
Dubin Law Offices
55 Merchant Street, Suite 3100
Honolulu, Hawaii 96813
Telephone: (808) 537-2300
Facsimile: (808) 523-77 33
E-Mail: jwaihee@dubinlaw.net
E-Mail: gdubin@dubinlaw.net
Attorneys for Respondent

DECLARATION OF JOHN D. WAIHEE, III IN SUPPORT OF RECONSIDERATION
I, JOHN D. WAIHEE, III, DECLARE:

1. I am a Member of the Bar of this Court, and I make the within statements
based upon my own personal firsthand knowledge, and in good faith pursuant to HRAP

Rule 40(b), asking each Member of this Court urgently to personally review these
motion papers and to take a second look at the record in these proceedings.

2. Those Members of this Court who know me personally know I am not known

for exaggeration or hyperbole, and that as former Governor my overriding goal in life
remains above all else as yours the well-being and protection of the people of Hawaii.

3. For that reason alone, I write to you because I have read your September

9,

2020 Disbarment Order of Gary Victor Dubin and personally know you have made a
grave error, apparently relying upon the mistaken judgment of another, and therefore
encourage each of you to personally review these motion papers prior to finaljudgment.

4. ln the many positions I

have held both in the State Legislature and as

Governor, I have met and interacted with countless Members of the Hawaii Bar,
including Mr. Dubin who I have worked closely with for a number of years and who in
my experience without reservation is among the most honest and contributing Members
of our entire legalcommunityand who does not deserve to be disbarred on this record.

5. I say this not only as a knowledgeable friend in support of his character and

his worth as a practicing attorney to this State, and certainly not because of that
friendship alone, but instead because

I sat through the many

prehearing conferences

and the seven days of his disciplinary hearings, witnessing firsthand the abuse he
experienced and can verify the truth of his factual representations to this Court in these

motion papers, including personally eye-witnessing the extraordinary manner in which
he was constantly denied due process of law as he summarizes for the Court.

I

6. Unless you withdraw your Order of Disbarment, the result will truly be the
tragic conclusion of one of the most unjust chapters in the legal history of this State.

7. Mr. Dubin has been the champion of the rights of ordinary people in our
community who are neither wealthy nor influential, as their advocate and without regard

to his own personal financial sacrifices, and most of his cases have been of a pro bono
nature, including the many important decisions he has secured in this Court.

8.

Some talk about Access to Justice. Mr. Dubin in his area of practice has done

more than talk about it; through his advocacy and the response of our appellate courts

in his cases he has created Access to Justice for thousands of Hawaii homeowners
without seeking any personal recognition or monetary or system rewards.
9. A people's practice such as his, however, spawns many irritated and powerful
adversaries and unseen vendettas, not an uncommon experience to many of us as well,
even though he serves as advocate and not decision maker, who in the role of decision
maker this Court has reversed in so many of his more than 100 successful appeals.

10. This is a practice and a people's advocate who this Court should protect and
applaud, not disbar on such a flawed record as before you.
11. Again, neither Mr. Dubin nor I are asking anything more of you than each of

you personally read these motion papers; if so, we are confident that you and anyone
else reviewing this record would withdraw any such Order of Disbarment.
12. Your next step, it is respectfully submitted, might be to reexamine the entire

attorney regulatory system in Hawaii that in the name of this Court has fostered such
undeserved personal abuse waged against such an undeniably contributing Member of
the Hawaii Bar, and forthat purpose afterthis experience lgladly volunteermy services.
I

declare under penalty of law that the foregoing is true and correct. Executed at

Honolulu, Hawaii, on September 21, 2020

;.'

,,'-*

"l#
N. D. WAIHEE, III
L.

2

-

scAD-19-0000561

IN THE SUPREME. COURT OFTHE STATE OFHAWAII

OFFICE OF DISCIPLINARY COUNSEL,
Petitioner,
VS.

GARY VICTOR DUBIN
Respondent,
CERTIFICATE OF SERVICE

CERTIFICATE OF SERVIGE

I hereby certify that on the date first written below true and correct copies of the
foregoing document were duly served upon the following attorneys via the Court's
JEFS' System, as follows:
Matthew S. Kohm, Esq.
1335 Hiahia Street
Wailuku, Maui, Hawaii 96793
Telephone: (808) 249-8968
E-Mail: m kohm @hawaii.rr.com
Special Counsel to Petitioner
Hamilton Phillips Fox, lll, Esq.
515 Fifth Street, NW, Room 117, Bldg. A
Washington, DC 20001
Telephone: (202) 638- 1 50 1
E-Mail foxp@dcodc.org
Special Counsel to Petitioner
DATED: Honolulu, Hawaii; September 21, 202O

J
N
il
GARY VICTOR DUBIN
Attorneys for Respondent

EXHIBIT 4

RULE T+ (g)(il COMPLIANCE
(some of where constitutional issues argued by Dubin below)

Opening Brief Before the Hawaii Supreme Court, May 5, 2020, pages 42-45
Supplemental Reconsideration Memorand um
before the Hawaii Supreme Court to Strike, November 8,2020, pages 1-4
Reconsideration Memorandum before the Hawaii Supreme Court to Strike,
November 6,2020, pages 1-5
Reply Declaration before the Hawaii Supreme Court, November 4,2020

Opening Brief before the Disciplinary Board, July 2,2019, pages 38-31
Hearing Memorandum before the Disciplinary Board, April 25, 2019, pages 1-3
Supplement Hearing Memorandum before the Disciplinary Board,
April 25,2019, pages 1-3
Disqualification Memorandum before the Disciplinary Board, April 3, 2019, pages 1'3
Disqualification Motion before the Disciplinary Board, April 3, 2019, pages 1-2

